Social Security Administration
Office of the Inspector General
   Semiannual Report to Congress
   October 1, 2013 - March 31, 2014
Who We Are
The Office of the Inspector General (OIG) is responsible for meeting the statutory mission of promoting
economy, efficiency, and effectiveness in the administration of Social Security Administration (SSA) programs
and operations; and preventing and detecting fraud, waste, abuse, and mismanagement in such programs
and operations. To accomplish this mission, we conduct and supervise a comprehensive program of audits,
evaluations, and investigations. We also search for and report systemic weaknesses in SSA programs and
operations, and make recommendations for needed improvements and corrective actions.

What We Do
We strive for continual improvement in SSA’s programs, operations, and management by proactively seeking
new ways to prevent and detect fraud, waste, and abuse. We commit to integrity and excellence by supporting
an environment that provides a valuable public service while encouraging employee development and
retention, and fostering diversity and innovation.

Reach Us

             @TheSSAOIG

             /OIGSSA

             /TheSSAOIG

             /TheSSAOIG

             http://oig.ssa.gov


Report Fraud
Reporting is easy, safe, and secure. You can reach us online, or by mail, phone, or fax.

Internet:    	http://oig.ssa.gov/report

U.S. Mail:          Social Security Fraud Hotline
                    P.O. Box 17785
                    Baltimore, Maryland 21235

FAX:                (410) 597-0118

Telephone:          (800) 269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
TTY:                (866) 501-2101 for the deaf or hard of hearing


Feedback
After reading our Semiannual Report to Congress, we encourage you to take a brief, anonymous survey to let us
know how we're doing. The survey is available on our website listed above. We appreciate any feedback that
can help us improve our publication.
                                                                                                                             Semiannual Report to Congress

                                                    TABLE OF CONTENTS


     A Message from the Inspector General.................................................................................................. 4
     Key Accomplishments..............................................................................................................................5
     Executive Summary..................................................................................................................................5
     Introduction to Our Organization........................................................................................................... 7
     Management Challenges......................................................................................................................... 9
     Audit........................................................................................................................................................ 11
       Significant Audit Activities.................................................................................................................. 11
     Investigations......................................................................................................................................... 13
       Investigative Results............................................................................................................................ 13
       Significant Investigative Activities..................................................................................................... 16
       Cooperative Disability Investigations................................................................................................ 20
       Digital Forensics Cases...................................................................................................................... 22
     Legal........................................................................................................................................................23
       Section 1140.........................................................................................................................................23
       Section 1129........................................................................................................................................ 24
     Support.................................................................................................................................................. 26
       Budget................................................................................................................................................. 26
       Human Resources.............................................................................................................................. 26
       Information Technology..................................................................................................................... 26
       Allegation Management and Fugitive Enforcement...........................................................................27
       Outreach..............................................................................................................................................27
     Appendices............................................................................................................................................ 28
       Reporting Requirements.................................................................................................................... 29
       Appendix A: Resolving Audit Recommendations.............................................................................. 30
       Appendix B: Reports Issued................................................................................................................32
       Appendix C: Reporting Requirements Under the Omnibus Consolidated
                           Appropriations Act of 1997..............................................................................................35
       Appendix D: Significant Management Decisions with which the Inspector General
                           Disagrees...................................................................................................................... 36
       Appendix E: Collections from Investigations and Audits..................................................................37
       Appendix F: Significant Monetary Recommendations from Prior Fiscal Years
                             for which Corrective Actions have not been Completed........................................... 39
       Appendix F: Significant Monetary Recommendations from Prior Semiannual
                             Report to Congress for which Recent Corrective Actions Have Been
                             Made........................................................................................................................... 44
       Appendix G: Significant Non-Monetary Recommendations from Prior Fiscal
                             Years for which Corrective Actions have not been Completed................................. 47
       Appendix G: Significant Non-monetary Recommendations from Prior Semiannual
                             Report to Congress for which Recent Corrective Action has been Made.....................52
       Appendix H: Peer Reviews................................................................................................................. 54
       Appendix I: Review of Legislation and Regulations..........................................................................55
     Glossary of Acronyms............................................................................................................................ 56




October 1, 2013 - March 31, 2014                                                                                                                                        3
Semiannual Report to Congress

                A MESSAGE FROM THE INSPECTOR GENERAL

    On January 7, 2014, I joined the Manhattan District Attorney in New York City to announce the indictments
    of more than 100 people—many of them retired police officers and
    firefighters—for their alleged involvement in a vast and longstanding
    scheme to defraud the Social Security Administration (SSA) out of millions
    of dollars in disability benefits. Since then, the OIG—in coordination with
    other law enforcement agencies—has arrested 134 people, including four
    alleged facilitators believed to have participated in this scheme.

    This investigation is another example of the fine work of our investigators
    and our cooperative efforts with SSA and its front-line employees and
    other law enforcement agencies. However, the scope of this fraud scheme
    is disturbing to me and my office.

    The public depends on us to identify fraud in SSA’s programs and improve
    the integrity of the Agency’s operations. The audit, investigative, and legal
    achievements highlighted in this Semiannual Report to Congress, for
    the period October 1, 2013 – March 31, 2014, represent the best efforts
    of our employees to fight fraud, protect SSA’s programs, and provide an
    exceptional return on the taxpayer funds invested in our operations.

    As you will read in this report, we keep these goals in mind with every audit we conduct and every investigation
    we close. The discovery of schemes like the one described above, have reminded us that preventing fraud
    requires constant innovation and collaboration. For example:

    •   I will co-chair the recently re-established National Anti-Fraud Committee with SSA’s Deputy
        Commissioner for Budget, Finance, Quality, and Management. The Committee will lead collaborative
        efforts among SSA’s Regional Anti-Fraud Committees to develop and support new strategies and
        initiatives to detect and prevent Social Security fraud.

    •   The Cooperative Disability Investigations (CDI) program has been fighting fraud and preventing
        improper payments for almost 17 years; it’s proven to be our most successful anti-fraud initiative, with
        CDI efforts contributing to more than $2.7 billion in projected savings to SSA programs. We hope to
        open seven new CDI units by the end of fiscal year 2015, bringing the total number of CDI units to 32.

    •   Our Disability Fraud Pilot, which we established last year, continues to focus exclusively on detecting
        high-dollar, high-impact cases of facilitator fraud. Our pilot teams are developing investigations into
        doctors, lawyers, and representatives from a nationwide review and analysis of fraud allegations and
        Social Security management information.

    These are just a few of our ongoing initiatives that focus on combating disability fraud. I assure you that
    this organization is committed to working with SSA and the Congress to help the Agency fulfill its duty to
    the millions of Americans who turn to it for help.

    I invite you to read more about what we do and how we do it in the pages that follow; and I encourage you
    to comment on this report and our work by participating in our Semiannual Report to Congress feedback
    survey located online.

                                                           P

                                               Patrick P. O'Carroll, Jr.
4                                                Inspector General                    October 1, 2013 - March 31, 2014
                                                                                Semiannual Report to Congress


EXECUTIVE SUMMARY



                                       Key Accomplishments
                                      October 1, 2013 - March 31, 2014

      Audit Reports Issued                                                                         33
      Questioned Costs                                                                   $521 Million
      Funds Put to Better Use                                                              $6 Million
      Allegations Received                                                                    58,251
      Investigations Opened                                                                    4,188
      Investigations Closed                                                                    3,756
      Arrests                                                                                     233
      Indictments/Informations                                                                    631
      Criminal Convictions                                                                       584
      Civil Actions/Civil Monetary Penalties                                                     170
      Cooperative Disability Investigations
        Confirmed Fraud Cases                                                                   2,002
        SSA Savings                                                                      $165,340,379
        Non-SSA Savings                                                                   $123,514,017




This report presents the significant activities of the SSA OIG from October 1, 2013 through March 31, 2014.
The report details the achievements of the OIG’s Offices of Audit, Investigations, Counsel, and OIG's support
components.


Audit
During this reporting period, we issued 33 reports and made recommendations on a variety of challenges facing
SSA. We also identified more than $521 million in questioned costs and more than $6 million in Federal funds
that could be put to better use.
Among our noteworthy reports, we issued two reviews of beneficiaries receiving payments above the family
maximum provisions or in excess of Federal limits. We found that SSA did not properly adjust child and spousal
benefits on 3,428 beneficiaries in accordance with the family maximum provisions, and that SSA improperly
issued 2,747 concurrent beneficiaries combined SSA payments that exceeded Federal limits. These two reports
identified approximately $44.4 million in improper payments, and found SSA would improperly pay about
$6.6 million per year unless it identifies and corrects these payment errors.




October 1, 2013 - March 31, 2014                                                                            5
                                                Table of Contents
Semiannual Report to Congress


Investigative
During this reporting period, we received more than 58,000 allegations from SSA employees, the Congress, the
public, law enforcement agencies, and other sources. Our agents closed more than 3,700 criminal investigations,
resulting in over 230 arrests, over 630 indictments and informations, over 580 criminal convictions (including
pretrial diversions) and 170 civil judgments/civil monetary penalty (CMP) assessments.
In the first half of FY 2014, we are reporting over $256 million in monetary accomplishments, with over
$58 million in SSA recoveries, restitution, fines, settlements, and judgments; and over $198 million in projected
savings from investigations resulting in the suspension or termination of benefits. In addition, we participated
in multi-agency investigations that resulted in over $37 million in savings, restitution, and recoveries for other
agencies.
Our CDI Program continues to be one of our most successful initiatives, contributing to the integrity of
SSA’s disability programs. The efforts of our CDI Units during this reporting period contributed to more than
$165.3 million in projected SSA program savings, and over $123.5 million in projected savings to other programs
such as Medicare.


Legal
During the reporting period, our attorneys initiated 245 CMP actions against individuals who made false
statements, representations, or omissions to obtain or retain Social Security benefits (violations of Section 1129
of the Social Security Act). OIG attorneys imposed almost $10 million in penalties and assessments through
the CMP program. We also pursued actions to protect the public from fraudulent schemes that make use of
the SSA’s well-known name and good reputation (violations of Section 1140). During this reporting period,
we achieved voluntary compliance in 16 Section 1140 cases, and deterred future violations through aggressive
outreach and enforcement efforts.


Outreach
During the reporting period, Inspector General O’Carroll testified before the House Subcommittee on Energy
Policy, Health Care, and Entitlements on continuing oversight of SSA's management of Federal disability
programs; and before the House Subcommittee on Social Security on the Social Security Disability Insurance
fraud scheme in New York.
The Inspector General also gave the keynote address about identity theft at a Federal Computer Week-sponsored
training event in Washington, D.C.; he joined the Manhattan District Attorney in New York City to announce
the indictments of more than 100 people allegedly connected to a disability fraud scheme; he appeared in
an episode of the Boston-based “Your Federal Government” television show; and he met with the National
Association of Disability Examiners Board of Directors at its mid-year meeting in Baltimore.




6                                                                                 October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                                                        Semiannual Report to Congress


      INTRODUCTION TO OUR ORGANIZATION
      SSA OIG comprises the Immediate Office of the Inspector General and five major components: the Offices of
      Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.



                                                                    Patrick P. O'Carroll, Jr.
                                                                      Inspector General




                                                                     Gale Stallworth Stone
                                                                    Deputy Inspector General




                                   Amy M. Smith                                                                         Kristin Klima
                                  Executive Officer                                                                  Congressional and
                                                                                                                     Intragovernmental
                                                                                                                           Liaison




     Steven L. Schaeffer                    B. Chad Bungard               Jonathan L. Lasher               Michael D. Robinson                    Kelly Bloyer
 Assistant Inspector General             Counsel to the Inspector   Assistant Inspector General for   Assistant Inspector General for     Assistant Inspector General
          for Audit                             General                    External Relations                 Investigations             for Technology and Resource
                                                                                                                                                 Management




     Rona M. Lawson                        Tristan B. L. Siegel            Tracy B. Lynge                          Vacant                      Gary Czarnecki
 Deputy Assistant Inspector               Deputy Counsel to the      Deputy Assistant Inspector         Deputy Assistant Inspector         Acting Deputy Assistant
 General for Audit - Program               Inspector General        General for External Relations      General for Investigations -        Inspector General for
   Audits and Evaluations                                                                             Intelligence and Administration     Technology and Resource
                                                                                                                                                Management



       Kimberly A. Byrd                                                                                    Robby A. Childress
  Deputy Assistant Inspector                                                                            Deputy Assistant Inspector
  General for Audit - Financial                                                                         General for Investigations -
Systems and Operations Audits                                                                               Field Operations




      Immediate Office of the Inspector General
      The Immediate Office of the Inspector General (IO) assists the Inspector General with the full range of his
      responsibilities. IO staff also coordinates with SSA, congressional committees, the Social Security Advisory
      Board, and the Council of Inspectors General on Integrity and Efficiency (CIGIE). IO also includes the Office
      of Quality Assurance and Professional Responsibility (OQAPR), which reviews OIG component offices to
      ensure compliance with Federal laws and regulations, Agency policies, and relevant professional standards;
      and conducts investigations into allegations of misconduct by OIG employees.

      October 1, 2013 - March 31, 2014                                                                                                                        7
                                                                          Table of Contents
Semiannual Report to Congress


Office of Investigations
The Office of Investigations (OI) conducts investigative activity related to fraud, waste, abuse, and mismanagement
in SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors, and third
parties, as well as by SSA employees. This office serves as the OIG’s liaison to the Department of Justice (DOJ)
on all investigative matters. OI also conducts joint investigations with other law enforcement agencies, and
shares responsibility with the Department of Homeland Security’s (DHS) Federal Protective Service (FPS) for
investigating threats or violence against SSA employees and facilities.


Office of Audit
The Office of Audit (OA) conducts financial and performance audits of SSA programs and operations, and
makes recommendations to ensure that program goals are achieved effectively and efficiently. Financial audits
determine whether SSA’s financial statements fairly present SSA’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations on issues of concern to SSA,
the Congress, and the general public.


Office of External Relations
The Office of External Relations (OER) disseminates information about the OIG’s work to Congress, the media,
and the public. OER prepares presentations for OIG executives, publishes informational materials, prepares
the Semiannual Report to Congress, and represents the OIG in the news media. OER also maintains the OIG
presence on the Internet, and supports OIG components with respect to external communications.


Office of the Counsel to the Inspector General
The Office of the Counsel to the Inspector General (OCIG) provides independent legal advice and counsel to the
Inspector General on a wide range of issues, including statutes, regulations, legislation, and policy directives.
OCIG also administers the CMP program, and advises the Inspector General on investigative procedures and
techniques, as well as on the legal implications of audit and investigative activities.


Office of Technology and Resource Management
The Office of Technology and Resource Management (OTRM) provides administrative support to the Inspector
General and OIG components. OTRM formulates and executes the OIG budget, and is responsible for strategic
planning, performance reporting, and facility and property management. OTRM manages OIG human
resources and develops administrative policies and procedures. OTRM also maintains hardware, software,
and telecommunications networks to support the OIG’s mission. Finally, OTRM manages the OIG’s Allegation
Management and Fugitive Enforcement Division.




8                                                                                  October 1, 2013 - March 31, 2014
                                                   Table of Contents
                                                                                    Semiannual Report to Congress


MANAGEMENT CHALLENGES
OIG annually identifies the most significant management issues facing SSA based on legislative mandates
and its audit and investigative work. A summary of each issue is below:

Strengthen Strategic and Tactical Planning
While near-term planning is important, SSA needs long-range plans that address long-term challenges,
including a rising workload, a decrease in experienced staff, overly complex program policies, and a rising
need to provide more services electronically. At a time when SSA needs to plan to do more with less, SSA
lacks long-term plans in a number of critical areas. In its report, The Social Security Administration: A Vision of
the Future, the Social Security Advisory Board recommended that SSA take multiple steps to ensure success in
2020, including rethinking its service delivery strategy, performing a comprehensive review of program policy
to reduce complexity, establishing a Systems Modernization Plan, and developing a Human Capital Plan. SSA
published a Service Delivery Plan in February 2013, but it did not comprehensively describe the service options
it will offer in the future or the resources needed to do so.

Improve Customer Service
The Agency faces several challenges as it pursues its mission to deliver Social Security services that meet
the changing needs and demographics of the American public. Each day, almost 182,000 people visit SSA
field offices, and more than 445,000 people call SSA for a variety of services, such as filing a claim, updating
information, and asking questions. In the last 3 years, SSA has lost over 11,000 employees. SSA’s diminished
workforce, coupled with hiring restrictions, comes at a time when demands for its services are as high as
they have ever been. The projected retirement of its employees continues to present a challenge to SSA’s
customer service capability. In addition, technology is rapidly changing and the public expects to complete
more business online. To complicate matters, issues such as the fraudulent redirection of direct deposit
benefit payments, and representative payee misuse of benefits strain SSA’s ability to balance customer service
with its stewardship responsibilities.

Improve the Timeliness and Quality of the Disability Process
SSA needs to address millions of initial disability and reconsideration claims, as it continues to have backlogs
of initial disability claims and continuing disability reviews (CDR). Over the past 2 years, SSA has received
a large influx of initial and reconsideration claims. We have an on-going audit to look at SSA’s progress in
reducing the initial claims backlog. SSA also has a backlog of 1.3 million medical CDRs. Medical CDRs are
effective in reducing overpayments in the DI program, and therefore, are a critical workload. We have continued
working with SSA to address the integrity of the disability programs through CDI that obtain evidence to
resolve questions of fraud in SSA’s disability claims.

Improve Transparency and Accountability
SSA faces a number of challenges ensuring accountability, including concerns over its internal controls,
systems security, and administrative cost allocations. In the FY 2013 Independent Auditor’s Report, the auditor
identified three deficiencies in internal control that, when aggregated, were considered to be a significant
deficiency in internal controls related to calculation, recording and prevention of overpayments. The auditor
also identified four deficiencies that, when aggregated, are considered to be a significant deficiency in the areas
of information systems controls. We also believe SSA can bring greater accountability to its administrative
cost allocation.




October 1, 2013 - March 31, 2014                                                                                 9
                                                   Table of Contents
Semiannual Report to Congress


Invest in Information Technology Infrastructure to Support Current and Future Workloads
SSA will not be able to manage its current and future workloads without the proper IT infrastructure. The Agency
uses a variety of technologies, including telephone service, the Internet, and videoconferencing to deliver
service to its customers. We have concerns regarding the Agency’s IT physical infrastructure; development
and implementation of secure electronic services; and logical access controls and security of sensitive
information. Nevertheless, SSA must provide additional electronic services to meet its customers’ growing
needs. While expanding its inventory of electronic services, the Agency needs to ensure its existing and future
electronic services are secure. In January 2013, SSA expanded its MySocialSecurity online portal; however,
fraudulent accounts were established to redirect Social Security benefits to unauthorized bank accounts. SSA
has implemented a variety of measures to protect the public and has initiated multiple efforts to detect and
prevent the fraudulent use of Social Security online services. According to SSA, through April 2014, less than
1 percent of the 12 million existing MySocialSecurity accounts were established fraudulently.

Reduce Improper Payments and Increase Overpayment Recoveries
SSA must be a responsible steward of the funds entrusted to its care and minimize the risk of making improper
payments. SSA strives to balance its service commitments to the public with its stewardship responsibilities.
However, given the size and complexity of the programs, some payment errors will occur. Given the large
overall dollars involved in SSA’s payments, even the slightest error in the overall process can result in millions
of dollars in over- or underpayments. One of the major causes of improper payments in the Old-Aged and
Survivors Disability Insurance (OASDI) program is benefit computation error. SSA has developed automated
tools to address the more troublesome computation issues. Another major cause of improper payments in
the SSI program is recipients’ failure to provide accurate and timely reports of new or increased wages. SSA
also has projects to help identify undisclosed resources.

Reduce the Hearings Backlog and Prevent its Recurrence
While SSA had a plan to eliminate the hearings backlog by 2013, the number of pending cases increased, and
the average processing time remained above the goal of 270 days. The Agency dropped the 466,000 pending
claims backlog goal from its FY 2013-2016 Strategic Plan and focused instead on reducing the average wait
time for a hearing decision to 270 days by the end of FY 2013. While the Agency will not meet the 270-day goal,
it has reduced the average wait times. For example, average processing time in FY 2008 was 514 days; by the
end of FY 2013, it was 382 days. The Senior Attorney Adjudicator (SAA) Program contributed to an increase in
adjudicative capacity and improved average processing time over the years; however, the number of SAA on-
the-record decisions has been declining, and the quality of these decisions has dropped. The agency is also
making efforts to identify problematic workload trends among Administrative Law Judges.

Strengthen the Integrity and Protection of the Social Security Number
Protecting the Social Security Number (SSN) and properly posting the wages reported under SSNs are critical
to ensuring SSN integrity and that eligible individuals receive the benefits due them. We remain concerned
about SSN misuse by noncitizens who are not authorized to work in the United States, as well as the misuse
of children’s SSNs for work and identity theft purposes. Accuracy in recording workers’ earnings is critical
because future benefit payments are calculated based on the earnings an individual accumulates over his/her
lifetime. Therefore, properly assigning SSNs only to those individuals authorized to obtain them, protecting
SSN information once the Agency assigns the numbers, and accurately posting the earnings reported under
SSNs are critical SSA missions.




10                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                    Semiannual Report to Congress


AUDIT

Significant Audit Activities
Adjustment of Monthly Benefits Under the Family Maximum Provisions
In this review, we determined that SSA did not always correctly adjust child and dually entitled spousal benefits
in accordance with family maximum provisions. The Social Security Act (the Act) limits the amount of benefits
payable to child and spousal beneficiaries on a Social Security record. If the total monthly benefits of all child
and spousal beneficiaries exceed the maximum allowable, SSA must reduce the benefit amount. However, the
family maximum may be higher if a child is entitled to benefits on both parents’ records, and spouses may
receive higher benefits if they have a child in their care under age 16 or disabled.

We estimated that SSA improperly paid spousal and child beneficiaries about
• $25.6 million on 2,334 records because it incorrectly calculated benefits payable under the family maximum,
• $10.8 million on 547 records because it did not combine the family maximum for children who were
   eligible for benefits on more than 1 record, and
• $4.6 million on 547 records because it improperly calculated benefits for spouses who had a child in their
   care.

We also estimated that SSA would improperly pay about $4.6 million per year on 2,006 records, unless it
identifies and corrects these payment errors.

We recommended that SSA: (1) take appropriate action to make underpayments and establish overpayments
on the 94 records identified by our audit; (2) evaluate the results of its corrective action for the 94 records and
determine whether it should review the remaining population of 7,095 records; (3) improve controls to ensure
these benefits are properly adjusted; and (4) remind employees to (a) properly apply the family maximum
provisions for records with dually entitled spouses and (b) review eligibility for children entitled to benefits on
both parents’ records and spouses with a child in their care.

SSA agreed with our recommendations.


Processing IRS Alerts for Supplemental Security Income Recipients
We conducted this audit to determine if SSA was properly processing 1099 alerts from the IRS and adjusting
payment amounts for Supplemental Security Income (SSI) recipients. The Spending Reduction Act of 1984
provides for SSA to receive IRS data to detect unreported nonwage information for SSI recipients. When IRS
records indicate possible unreported income or resources, SSA systems generate an alert and annotate the
recipient’s record for further processing.

We found that SSA’s processing of IRS alerts needs improvement. SSA did not always develop alerts timely to
recover potential overpayments. We estimate SSA may have overpaid 1,014 SSI recipients about $12 million for
tax year 2010. Based on our findings, we would expect similar results if we reviewed alerts from other tax years.
Although SSA could develop cases and assess overpayments before administrative finality rules applied, we
found that 27 percent of the alerts we identified in December 2011 were still pending as of April 2013.

We made four recommendations, including to 1) review the 20 sample cases we determined had overpayments
as well as the other 2,485 sample cases, and appropriately adjust the SSI payments; and 2) review the existing
statistical profiling model to determine if cases with significant income and resources are more likely to lead to
an overpayment and should be sent to a field office for development. SSA agreed with our recommendations.




October 1, 2013 - March 31, 2014                                                                                11
                                                   Table of Contents
Semiannual Report to Congress


Improper Use of Children’s SSNs
We conducted this review to determine if children’s SSNs were being misused for work purposes. SSA matches
the names and SSNs on W-2 Forms against its own records to ensure that the information on the W-2 can be
properly recorded. SSA does not add reported wages to individuals’ records if the Agency’s records indicate
1) the wages were earned after a listed date of death or 2) the wage earner is a child age 6 or younger. SSA
assigns an Earnings After Death indicator to the record of any deceased individual whose W-2 Form reports
wages earned after the date of death listed in SSA’s records.

We found that in tax years 2007 to 2010, about 37,700 employers reported approximately $1 billion in wages
using the names and SSNs assigned to 36,546 children ages 13 and younger. SSA’s records indicated that
36,181 were alive and 365 were deceased when the wages were earned. From the population of alive children,
we reviewed a sample of 100, and found that 71 were legitimately working and had earned about $30 million in
wages; 8 cases involved SSN misuse, 6 involved an edit routine error1, and 15 involved enumeration errors. We
reviewed all of the 365 deceased children’s cases, and found that 362 involved SSN misuse. These children had
about $9 million in wages reported by employers that did not typically employ children. Although many of the
employers involved with the SSN misuse cases were registered to use the Social Security Number Verification
Service (SSNVS), they may not have been aware the SSNs belonged to children under age 14 because a date
of birth is not mandatory for verification.

We recommended that SSA take action on cases in our sample, and notify employers through SSNVS when
they submit a child’s SSN for verification. SSA agreed with our recommendations.


Analysis of Hearing Offices Using Key Risk Factors
We used key risk factors developed in our January 2013 review, Identifying and Monitoring Key Risk Factors at
Hearing Offices, to create a model that analyzes performance and outcome data among administrative law
judges (ALJ) in the same office. The risk factors are ALJs’ (1) allowance rates, (2) number of dispositions, (3)
on-the-record (OTR) decision rates, (4) dismissal rates, and (5) average processing time. We then used our
model to analyze FY 2012 workload data. We identified hearing offices with the highest and lowest variance
scores, and identified the regions with the highest percent of offices under each variance category. We believe
outlier hearing offices may indicate potential processing issues (high-variance) as well as potential best
practices (low-variance).

In follow-up discussions with regional managers, we learned that they focused their oversight on individual
ALJ performance, rather than on variances among ALJs in hearing offices as we do in our model. Our review of
the hearing offices with the 10 highest variance scores identified an outlier ALJ who had a significant number of
dispositions and OTR decisions with the same claimant representative. We referred this case to management
for additional review.

We recommended that SSA: 1) determine whether our model would assist SSA in monitoring hearing office
performance, understanding that the number and nature of the risk factors can be adjusted to meet the needs
of management; and 2) ensure that SSA’s early monitoring system combines existing information on ALJ OTR
decisions and case rotation to identify ALJs who issue a high percentage of OTR decisions with the same
claimant representative. SSA agreed with our recommendations.




1 SSA uses the Single Select edit routine to resolve unmatched name and SSN data submitted to SSA in employers’ wage reports.
Single Select creates up to 89 possible variations of the SSN and matches them against SSA’s records. If one SSN/name match
is found, the earnings are posted to the validated SSN. If no match is found on the last name, the edit is extended to search for
a match on the entire name. SSA reported that in February 2014, it implemented an expanded edit routine that increased the
character field lengths for the name matching.

12                                                                                            October 1, 2013 - March 31, 2014
                                                         Table of Contents
                                                                                         Semiannual Report to Congress


INVESTIGATIONS
Our Office of Investigations examines and investigates allegations of fraud, waste, abuse, and mismanagement
in SSA programs and operations. These allegations may involve issues such as benefit fraud, SSN misuse,
violations by SSA employees, or fraud related to grants and contracts. Our investigations often result in criminal
or civil prosecutions or the imposition of CMPs against offenders. These investigative efforts improve SSA
program integrity by recovering funds and deterring those contemplating fraud against SSA in the future. Our
work in the areas of program fraud, enumeration fraud, SSN misuse, and other Social Security-related fraud
ensures the integrity of SSA programs.




                                        Investigative Results
                                                                       10/1/13-3/31/14

                              Allegations Received                         58,251


                              Cases Opened                                 4,188


                              Cases Closed                                  3,756


                              Arrests                                       233


                              Indictments/Informations                      631


                              Criminal Convictions                          584


                              Civil Actions/CMPs                            170




October 1, 2013 - March 31, 2014                                                                                    13
                                                   Table of Contents
Semiannual Report to Congress




14                                                  October 1, 2013 - March 31, 2014
                                Table of Contents
                                                                                       Semiannual Report to Congress




                                  Allegations Received by Source
                                                                    10/1/13-3/31/14

                          SSA Employees                                    31,768

                          Private Citizens                                 14,552

                          Anonymous                                        8,556

                          Law Enforcement                                  1,595

                          Beneficiaries                                    1,019

                          Public Agencies                                   753

                          Other1                                             8

                          TOTAL                                            58,251

                      1
                       Other includes allegation sources such as: Congressional,
                      Financial Institutions, Contractors/Grantees, White House,
                      Employee of Contractor, and Employee of Subject.




                               Allegations Received by Category
                                                                     10/1/13-3/31/14

                          Disability Insurance                             18,839

                          SSI Disability                                   10,338

                          SSN Misuse                                        7,792
                          Old-Age and Survivors
                                                                           16,404
                          Insurance
                          Other                                             2,830

                          Threats/Employee Safety                           666

                          Employee-Related                                   681

                          SSI Aged                                           701

                          TOTAL                                            58,251




October 1, 2013 - March 31, 2014                                                                                  15
                                                       Table of Contents
Semiannual Report to Congress


Significant Investigative Activities

Disability Program Fraud
More than 130 People Charged in New York City-based Disability Fraud Conspiracy
Acting on a referral from SSA’s New York Regional Office, our New York office investigated an alleged disability
fraud conspiracy in New York City. We identified numerous individuals—many of them retired city police officers
and firefighters—as allegedly participating in this scheme. With the assistance of four scheme facilitators—an
attorney, a disability consultant, and two recruiters—the individuals allegedly submitted false disability claims
and feigned mental illnesses to fraudulently collect Social Security Disability Insurance.

On January 7 and February 25, 2014, our agents, along with the New York County District Attorney’s Office,
the New York Police Department and other law enforcement agencies, conducted operations resulting in the
arrest of 134 individuals on charges of larceny and conspiracy. Further judicial actions against these individuals
are pending, and the investigation is ongoing.

Disability Beneficiary Feigns Blindness
Based on a complaint received from a private citizen, our Milwaukee office investigated a 58-year-old Title II
disability beneficiary who claimed to be blind. The investigation revealed the man was not blind, he owned
and operated two water filtration companies, and he failed to pay taxes on his income. After the man pled
guilty to wire fraud and tax evasion he was sentenced in January to 1 year in prison and 1 year of supervised
release. He was also ordered to pay $174,670 to SSA and $51,865 to the IRS.

In-home Care Provider Defrauds SSA and Others
Acting on information provided by the U.S. Attorney’s Office, Western District of Virginia, our Charleston, West
Virginia office investigated a 41-year-old woman who concealed her employment as an in-home care provider,
while collecting Title II disability benefits. In addition, she committed food stamp fraud and embezzled money
from her employer. After she pled guilty to food stamp fraud and bank fraud, she was sentenced in January
2014 to 30 months in prison and 3 years’ supervised release. She was also ordered to pay $153,759 to her
former employer, $3,936 to the of Virginia Supplemental Nutrition Assistance Program, and $19,840 to SSA.

Disability Beneficiary Found Working as Fire Chief
Based on information provided by the Federal Bureau of Investigation (FBI), our St. Louis office investigated
a 48-year-old Title II disability beneficiary. The investigation revealed that the man failed to report income he
received as a fire chief in a Missouri town. After the man pled guilty to wire fraud, Federal program theft, and
false statements, he was sentenced in November to 33 months in prison, 3 years’ probation, and ordered to
pay restitution of $118,905 to SSA and $140,833 to the local fire district.


Representative Payee Fraud
Georgia Woman Conceals that Child Was Not in her Care for Over 8 Years
Acting on a referral from the Waycross, Georgia SSA office, our Atlanta office investigated a 33-year-old woman
who served as the representative payee for her son’s Title II survivors’ benefits, and collected child-in-care
benefits for herself. From mid-2004 through November 2012, the woman received these benefits for herself
and her son, even though the child was living with family in Delaware and not in the woman’s care. After
she pled guilty to wire fraud, in January 2014 she was sentenced to 37 months in prison and ordered to pay
restitution of $200,612 to SSA.




16                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                    Semiannual Report to Congress


Representative Payee Uses Multiple Identities to Obtain Government Benefits
Based on a request for investigative assistance from the Department of Labor/OIG, our Las Vegas office
investigated a 50-year-old woman for fraudulently obtaining unemployment insurance benefits using multiple
identities, including the names and SSNs of other people, to submit fraudulent claims through fictitious
employers. We determined that the woman created multiple fictitious identities, and requested several
replacement Social Security cards using existing individuals' personal information, to further this scheme.
She also received Title II auxiliary benefits as a representative payee for a child that was never in her care,
and used an alias to obtain a public housing unit from the Southern Nevada Regional Housing Authority
(SNRHA). After she pled guilty to theft of government funds, she was sentenced in January 2014 to 57 months
in prison and 3 years’ supervised release. She was also ordered to pay $40,656 to SSA, $322,682 to the Nevada
Department of Employment, Training and Rehabilitation, and $114,128 to the SNRHA.

Woman Working for Organizational Representative Payee Embezzles Funds
Acting on information received from an area organizational representative payee, our Seattle office investigated
the 61-year-old former manager of the business’ Representative Program. Between January 2006 and December
2010, the woman wrote checks from the business’ trust account, which contained SSA beneficiaries’ funds, to
pay her personal expenses. After the woman pled guilty to theft of government funds and theft of government
property forfeiture, she was sentenced in January 2014 to 5 months in prison and 36 months’ supervised
release. She was also ordered to pay $88,390 to the business and its insurance carrier.

SSA Fraud
Jamaican National Sentenced in Lottery Scheme
Acting on an OIG Headquarters’ referral, our Milwaukee, Wisconsin office, along with the U.S. Department of
Homeland Security, and the U.S. Postal Inspection Service, investigated a Jamaican citizen, as part of a “lottery
scam” investigation. For years, the 29-year-old man compromised numerous SSA beneficiaries’ identities,
stole over $100,000 in SSA benefits by fraudulently redirecting victims’ benefits to pre-paid debit cards, and
sent the money to co-conspirators living in Jamaica. After he pled guilty to conspiracy and mail fraud, he was
sentenced in December to 60 months in prison and 3 years’ supervised release. He was also ordered to pay
$185,371 to SSA.

Texas Woman Uses False Identifiers to Obtain Tax Refunds and Loans
In response to information from the FBI and the U.S. Attorney’s office, our San Antonio office investigated
a 46-year-old Texas woman who used false names and SSNs to obtain tax refunds and money from falsified
loan applications. After the woman pled guilty to false, fictitious, or fraudulent claims and misuse of an SSN,
she was sentenced in November 2013 to 63 months in prison and 5 years’ supervised release. She was also
ordered to pay $407,488 to various financial institutions.

Employee Fraud
Former SSA Assistant District Manager Convicted on Multiple Criminal Charges
Based on a referral from the U.S. Department of Labor/OIG and the Rhode Island State Police, our Boston office
investigated a 49-year-old SSA assistant district manager for accessing the SSA database to obtain personally
identifiable information of an SSA beneficiary. The manager used the information to open a brokerage account
in his and the beneficiary’s name, and transferred and cashed two stock certificates owned by the beneficiary.
After the employee pled guilty to mail fraud, transportation of stolen securities, tax evasion, aggravated identity
theft, and false tax returns, he was sentenced in January to 39 months in prison, 36 months’ probation, and
ordered to pay restitution of $245,299 to the victim. The employee retired from SSA in November 2011.




October 1, 2013 - March 31, 2014                                                                                17
                                                   Table of Contents
Semiannual Report to Congress


Former SSA Employee Convicted of Theft of Government Property
In response to information from the Baltimore, Maryland SSA office, our Baltimore office investigated a
40-year-old former SSA information technology (IT) specialist. The investigation revealed that the employee
stole SSA computer equipment and took other computer-related items from SSA, posted them on eBay, and
sold them for profit. The employee pled guilty to theft of government property and was sentenced in January
2014 to 3 years’ probation and ordered to pay $106,674 to SSA. The employee resigned from SSA in September
2013.

Former Claims Representative Convicted of Extortion
Based on a referral from the Morrow, Georgia SSA office, our Atlanta office investigated a 47-year-old former
SSA claims representative for soliciting payments from several SSA benefit applicants to expedite the payment
of retroactive benefits they were entitled to receive. The investigation determined the employee requested
monies in exchange for special treatment. The employee requested 5 percent, or $1,000, of the beneficiaries’
lump sum payments received. The employee pled guilty to extortion, and was sentenced in December 2013
to 12 months in prison, 3 years of supervised release, and 120 hours of community service. The employee was
also ordered to pay $7,654 to the victims. The individual’s employment with SSA was terminated in June 2013.

Former SSA Employee Convicted of Theft of Government Property
In response to information provided by the U.S. Attorney’s Office, District of Maryland, our Baltimore
office investigated a 39-year-old former SSA Telecommunications and Systems Operations IT specialist. We
determined that the employee sold marijuana on SSA property, stole and sold SSA computer equipment, and
committed time and attendance fraud. The employee pled guilty to theft of government property and was
sentenced in January 2014 to 3 years’ supervised probation and ordered to participate in mental health and
substance abuse treatment. He was also ordered to pay $5,750 to SSA. His employment was terminated in
October 2013.

Deceased Payee Fraud
Louisiana Woman Receives Deceased Mother’s Benefits for 22 years
Based on information from the Alexandria, Louisiana SSA office, our Houston office investigated a 58-year-
old woman who, from July 1990 through April 2012, converted her mother’s Title II widows’ benefits to her
personal use, after her mother’s death. After she pled guilty to theft of government funds, she was sentenced
to 3 months in prison, 9 months’ home confinement and 3 years’ supervised release. She was also ordered to
pay $192,918 to SSA.

Nephew Ordered to Pay Restitution of Over $236,000 to SSA
Based on a referral from the Lakewood, Colorado SSA office, derived from SSA’s Centenarian Project, our
Denver office investigated a 66-year-old man who misused the Title II retirement benefits of his deceased
aunt. From November 1986 through August 2011, the nephew converted to his own use the benefits intended
for his deceased aunt. After pleading guilty to theft of government funds, he was sentenced in January 2014
to 1 year in prison. He was also ordered to pay $236,187 to SSA.



SSN Misuse
Chicago Woman Commits Mortgage Fraud
Acting on an anonymous report, our Chicago office investigated a 40-year-old SSI disability recipient. The
investigation revealed the woman received SSI under her assigned SSN, while concealing earnings under
a second SSN. Our Chicago office determined that the Department of Housing and Urban Development
(HUD) OIG was investigating the woman for an elaborate mortgage fraud scheme, totaling over $2 million in
losses. After pleading guilty to wire fraud and bankruptcy fraud, she was sentenced in November 2013 to 30
months in prison, and was ordered to pay $32,284 to SSA and $2,073,191 to HUD.

18                                                                             October 1, 2013 - March 31, 2014
                                                Table of Contents
                                                                                 Semiannual Report to Congress


Woman with Two Identities Received Disability Benefits While Concealing Work
In response to a referral from the Illinois State Police, our Chicago office investigated a 67-year-old Chicago
woman. From March 1996 through May 2012, the woman concealed that she had two identities and SSNs.
Between March of 1996 and May of 2012, the woman worked and fraudulently received SSI disability and
retirement benefits, totaling $48,235. She also received food stamps and other state welfare under both
identities, totaling $19,670. After the woman pled guilty to theft of government funds, she was sentenced
in October 2013 to 3 years’ probation and 100 hours of community service. She was also ordered to pay
restitution of $48,235 to SSA and $19,670 to the Illinois Department of Healthcare and Family Services.


Threats and Assaults Against SSA Employees
Employee safety is of paramount concern to SSA and OIG, as the number of threats and assaults against
Government employees has increased in recent years. We share the responsibility for investigating reports of
threats or violence against Agency employees with the Department of Homeland Security’s Federal Protective
Service, which has jurisdiction over physical property owned or leased by the Federal government; and with
local law enforcement if the activity occurs off federally owned or leased property.

During the reporting period, we received more than 600 allegations nationwide related to employee safety
issues, of which about 200 involved assault or harassment, and over 400 were associated with threats against
SSA employees or buildings. We opened over 30 cases and closed 30 cases nationwide related to employee
safety. Following are examples of significant investigations we conducted during this reporting period in
which SSA employees were threatened or assaulted.

Man Threatens to Bomb SSA Office
Based on a report received from the Minot, North Dakota SSA office, our Sioux Falls office investigated a
54-year-old man who left a voicemail message at the Minot office stating that he wanted to speak to someone
that day or he would “blow up” the office. After the man pled guilty to threatening to damage or destroy
property by means of an explosive, he was sentenced in October to 9 months in prison and 3 years’ supervised
release.

SSI Applicant Threatens to Kill SSA Employees
Acting on information from the SSA Queens, New York Hearing Office, our New York office investigated a
26-year-old SSI disability applicant who threatened to kill SSA employees, including an Administrative Law
Judge (ALJ), and himself, if he could not meet with the ALJ assigned to hear his case. After the man pled
guilty to making a terroristic threat, he was sentenced in November 2013 to time served (1 year and 5 months)
and 5 years’ probation. He was also ordered to obtain medical treatment for his addiction and psychological
disorders.

Man Threatens to "Shoot Up" SSA Office
In response to a report from the Panorama City, California SSA office, our Los Angeles office investigated
a 44-year-old California man who made several threats against employees at the Panorama City SSA office.
During the incident, the man threatened to bring additional people and “shoot up the office.” After the man
pled no contest to making a criminal threat, he was sentenced in November 2013 to 180 days in prison and 36
months’ probation.




October 1, 2013 - March 31, 2014                                                                            19
                                                 Table of Contents
Semiannual Report to Congress


Cooperative Disability Investigations Program
The CDI program continues to be one of our most successful joint initiatives, contributing to the integrity of
SSA’s State disability programs. CDI is a joint effort of the OIG, SSA, State Disability Determination
Services (DDS), and State/local law enforcement personnel. Established in 1997 with units in just five
states, the CDI program now has 25 units in 21 states and the Commonwealth of Puerto Rico. The units work to
obtain sufficient evidence to identify and resolve issues of fraud and abuse related to initial and continuing
disability claims.
The following CDI case summaries highlight major investigations we conducted during this reporting period
that enhanced SSA program integrity and the reliability of SSA’s operations.

St. Louis Bow Hunting Mom Falsifies Disability Claim
The St. Louis CDI Unit investigated a 34-year-old woman who was receiving Title II disability benefits for an
injured back and claimed she was unable to work. The Union, Missouri SSA office referred this case because
of an anonymous letter they received, along with four photographs of the woman engaging in physical activity.

Through surveillance, interviews, and the woman’s social media accounts, the investigation determined that
she was participating in physical activities like bow hunting and going to a concert. During the investigation,
the woman’s treating physician was interviewed and shown the surveillance video. After which, the physician
changed her position from the beneficiary being totally disabled to a position that she was capable of working.
As a result of the CDI investigation, SSA initiated a Continuing Disability Review (CDR)and later terminated
the woman’s disability benefits. In January 2014, after a jury convicted her of false statements and theft of
government funds, the woman was sentenced to 12 months and 1 day in prison and 3 years’ supervised
release. She was also ordered to pay $18,111 to SSA.

Tampa Woman Falsifies Impairments on Disability Application
The Tampa CDI Unit investigated a 26-year-old woman who was applying for SSI due to lower back problems,
right hip, leg, and foot problems, hearing difficulty in the right ear, and moderate mental retardation. Due
to her many prior applications with no physical impairment, the Florida Division of Disability
Determinations (DDD) referred this matter to the CDI Unit.

Through witness interviews and surveillance, the CDI investigation revealed that the woman did not appear to
have any difficulty moving or walking and even managed to load bags of groceries into and out of a shopping
cart without any noticeable difficulty.

In June 2103, SSA denied the woman’s SSI application. Additionally, due to the woman’s false statements on
her SSA Function Report, the CDI Unit referred her case to OCIG for CMP consideration. In January 2014,
she was assessed a CMP of $10,500 to SSA.

Man’s False Paralysis Claim Leads to Denial of Benefits and a CMP
The Denver CDI Unit investigated a 25-year-old man who was applying for Title II disability benefits due to
paralysis in his left arm. The Colorado Disability Determination Services (DDS) referred the allegation to the
CDI Unit due to his frequent applications and inconsistencies in those applications.

CDI investigators conducted surveillance of the man and observed him talking on a cell phone that he held
with his left hand and later, carrying objects, opening doors, and drinking from a cup with his left hand. The
man was also observed driving a car that was equipped with a manual transmission.

The Colorado DDS denied the man’s claim. Furthermore, since he made false statements to SSA on his
Function Report regarding the use of his left arm, the case was referred for CMP consideration. As a result, in
February 2014, the man was assessed a CMP of $8,000.




20                                                                              October 1, 2013 - March 31, 2014
                                                 Table of Contents
                                                                                                                                                          Semiannual Report to Congress


The following table highlights the successes of the CDI program, which yielded more than $165.3 million in
projected SSA program savings during this reporting period:


                                        Cooperative Disability Investigations Program Results
                                              October 1, 2013 through March 31, 2014
                                                                     Allegations                  Cases Denied/                                                                   Non-SSA
                             State                                                                                                      SSA Savings1
                                                                      Received                       Ceased                                                                       Savings2

       Arizona                                                             129                              64                                     5,475,950                          3,817,147
       California3                                                        570                              183                                   12,505,334                        12,883,299
       Colorado                                                            97                               64                                    5,768,000                         4,229,098
       Florida                                                            111                               82                                     6,133,863                        4,627,220
       Georgia                                                             93                              106                                    8,394,078                           5,433,585
       Illinois                                                           122                               63                                     5,065,577                        2,992,940
       Kentucky                                                           113                               38                                     3,059,611                         1,920,435
       Louisiana                                                           94                               62                                    5,496,870                         3,622,602
       Massachusetts                                                      106                               60                                    5,407,500                           4,837,338
       Mississippi                                                         51                               29                                    2,353,929                          1,302,702
       Missouri4                                                          253                              166                                   13,007,001                          9,579,412
       New York                                                            94                               33                                   2,668,460                          2,380,905
       Ohio                                                               308                              165                                   12,807,634                        12,346,283
       Oklahoma                                                           108                               66                                    5,908,719                           3,176,765
       Oregon                                                             210                              199                                    17,657,375                       12,680,271
       Puerto Rico                                                         30                                0                                             0                                  0
       South Carolina                                                     180                              167                                   13,786,954                         9,270,998
       Tennessee                                                           43                               33                                    2,905,598                          2,189,856
       Texas5                                                             235                              151                                    12,542,315                        9,780,888
       Utah                                                               154                               80                                     7,126,038                        4,516,904
       Virginia                                                           111                               87                                    7,624,879                          5,716,098
       Washington                                                         170                              124                                   9,644,694                          6,209,271
       Total (10/1/13 – 3/31/14)                                          3,382                           2,022                                    165,340,379                     123,514,017
       1 SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI investigations. When a CDI Investigation supports the cessation /termination of

       an in-pay case, SSA program savings are calculated using a formula that takes into account the average number of years that SSA has determined that a person remains on its rolls, as well as

       the total percentage of CDRs that resulted in a suspension, termination, or reduction in benefits due to CDI investigations.

       2 Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result of a CDI investigation, using estimated or actual benefit

       amounts documented by the responsible agency.

       3 California has two units, one in Los Angeles, and the other in Oakland.

       4 Missouri has two units, one in Kansas City and the other in St. Louis.

       5 Texas has two units, one in Dallas, and the other in Houston.




October 1, 2013 - March 31, 2014                                                                                                                                                                            21
                                                                                           Table of Contents
Semiannual Report to Congress


Digital Forensic Cases
Kentucky Man Worked under His Wife’s SSN to Receive Disability Benefits
Our Digital Forensic Team (DFT) investigated a 47-year-old man who was receiving Title II disability benefits
and conspired with his employer to conceal his earnings as a construction estimator by posting the earnings
under his wife’s SSN. The employer allegedly provided wages to the man in the form of a Visa debit card, and
later by adding his wife to the company payroll.

Members of the DFT, along with the Lexington, Kentucky CDI Unit, Kentucky Office of the Attorney General,
and the Kentucky State Police, executed a search warrant on the business at which time four computers and
an external hard drive were seized.

The DFT conducted forensic analyses of the seized electronic media and was able to determine that the man
worked for the company and that his wife was added to their payroll to hide his earnings.

SSA terminated the man’s disability benefits. In November 2013, after the man and his wife were charged with
aiding and abetting the theft of government money, the man was sentenced to 3 months in prison, 2 years of
supervised release, and ordered to pay restitution of $52,472 to SSA. His wife was sentenced to 6 months’
home imprisonment and 3 years’ supervised release. She was also ordered to pay $16,912 to SSA. The owner
of the construction company was charged with aiding and abetting and ordered to pay $62,472 to SSA.

Texas Man Conceals Employment as Truck Driver
Acting on information received from the San Antonio SSA office, our San Antonio office investigated a 52-year-
old former Title II disability beneficiary. From January 1997 through June 2012, the man conspired with the
owners of a trucking company to conceal his employment as a truck driver from SSA. The owners of the
trucking company paid his wages in his wife's name and SSN. The wife aided and abetted the conspiracy
by telling SSA that she worked for the company. SSA determined that the man received $171,449 in disability
benefits to which he was not entitled.

In June 2012, the Texas Department of Public Safety, our San Antonio office, and members of the DFT executed
a Federal search warrant at the trucking company. During the search, two computers were seized and
forensically imaged. The search linked the man to working at the trucking company.

In November 2013, after the man and his wife pled guilty to conspiracy to commit fraud, theft of government
funds, and aiding and abetting, both were sentenced to 5 years’ supervised probation and ordered to jointly
pay $171,449 to SSA.

In October 2013, after pleading guilty to willful failure to file returns, supply information, or pay taxes to the
IRS and aiding and abetting, the two trucking company owners were sentenced to 10 months’ supervised
probation and ordered to pay $10,000 each in court fines.




22                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                    Semiannual Report to Congress


LEGAL

Section 1140 Enforcement and Case Highlights
Using authority delegated by the Commissioner of Social Security, we aggressively enforce Section 1140 of
the Social Security Act, which prohibits the misuse of SSA words and symbols in misleading advertisements,
solicitations, or other communications. Section 1140 also prohibits the reproduction and sale of SSA forms
without authorization.
Misleading communications take many forms, such as deceptive mailers, attorney advertising, and Internet-
based solicitations and communications, which often include the online sale of otherwise free Social Security
publications and forms. In the pursuit of financial gain or the accumulation of PII, scammers use misleading
domain names, websites, mobile apps, social networking sites, and advertisements linked to search engines
(e.g., Google) and social media (e.g., Facebook) that create a false sense that the scammers are associated with
SSA. Section 1140 provides a CMP of up to $5,000 for each violation and $25,000 for each violative broadcast/
telecast aired. Penalties collected are deposited into SSA’s Old Age and Survivors Trust Fund.
We continued our highly successful Section 1140 outreach program by meeting with companies in a variety of
industries commonly used by Section 1140 violators. During this reporting period, we continued our recent
focus on social media by establishing a cooperative relationship with major companies who work with usto
locate fraudulent operations, identify the perpetrators, and either shut down violators or suspend their activities
until Section 1140 compliance is achieved. During this reporting period, we continued with our recent focus
on social media by establishing a cooperative relationship with Facebook, Inc. To remain ever vigilant and
proactive in our Section 1140 enforcement efforts, we continually look for new industries and companies in
which to expand our Section 1140 outreach efforts.



                                                 SECTION 1140

                                                                       10/1/13– 3/31/14

                            Cases Reviewed                                    34

                            Cases Closed - No Violation of
                                                                              18
                            Section 1140

                            Cases Successfully Resolved
                            (Voluntary Compliance and                         16
                            Settlement Agreement)

                            Penalties Imposed                             $220,000



Section 1140 Case Summaries
New York-Based Internet Entrepreneur Agrees to Pay $100,000 CMP and Discontinue Use of URL
A New York-based Internet entrepreneur agreed to pay a CMP and discontinue use of the Uniform Resource
Locator (URL) SocialSecurity.com to settle our claim that the URL violated Section 1140 of the Social Security
Act. The entrepreneur voluntarily ceased the use of the URL’s website without admitting that a Section 1140
violation occurred, agreed to comply with section 1140, discontinued the use of the URL, and paid a $100,000
penalty.


October 1, 2013 - March 31, 2014                                                                                23
                                                   Table of Contents
Semiannual Report to Congress


Maryland-Based Non-profit Organization Agrees to Pay $50,000 CMP
Civic Council, Inc., of Frederick, Maryland, d/b/a Benefit Security Coalition and Council of Seniors (Civic
Council), agreed to pay a CMP to settle our claim that the company violated Section 1140 by mailing solicitations
containing references to SSA and discussing Social Security-related issues in a misleading manner. Civic
Council, without admitting that it violated the Act, cooperated fully with us, agreed to comply with Section
1140 in the future, and agreed to pay a $50,000 penalty.

Missouri Companies Agree to Pay $35,000 and $10,000 CMPs for Lead Card Mailings
Haberstroh Insurance Agency, Inc., d/b/a National Reply Center (Haberstroh) and Stolze Printing Company,
Inc. (Stolze), both of Bridgeton, Missouri, agreed to pay CMPs to settle our claim that the companies violated
Section 1140. Stolze printed and mailed on behalf of its client, Haberstroh, several insurance-related
solicitations (commonly referred to as “lead card mailings” or simply “lead mailings”) containing references
to Social Security on the outside of the envelopes in a manner that we asserted violate Section 1140. Without
admitting violations of law, both companies cooperated with us, agreed to comply with Section 1140 in the
future, and agreed to pay penalties of $35,000 and $10,000, respectively.



Section 1129 Enforcement and Case Highlights
The OIG’s Section 1129 CMP program maximizes available resources to create a positive return on investment.
Section 1129 authorizes a CMP against anyone who makes any false statement, misrepresentation, or material
omission in connection with obtaining or retaining benefits or payments under Titles II, VIII, or XVI of the
Act. In addition, CMPs may be imposed against representative payees for wrongful conversion of payments,
or against individuals who knowingly withhold a material fact from SSA. After consultation with DOJ, we
are authorized to impose CMPs, which may include 1) a penalty of up to $5,000 for each false statement,
representation, conversion, or omission made; and 2) an assessment, in lieu of damages, of up to twice the
amount of any overpaid benefits, subject to the statute of limitations.

We have been committed to increasing the number of cases successfully resolved each year to ensure
Section 1129 serves to punish wrongdoing in cases where criminal prosecution has been declined. Last year,
in FY 2013, we successfully resolved 280 cases and imposed more than $15 million in CMPs. Continuing
our aggressive enforcement efforts, the following table and cases highlight the value achieved through our
Section 1129 efforts for this reporting period.


                                                  SECTION 1129
                                                                          10/1/13– 3/31/14

                            Penalties and Assessments Imposed               $8,527,043

                            Number of Hearings Requested                         29
                            Cases Successfully Resolved (settled
                            case, favorable judgment, or penalty                156
                            imposed)




24                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                Semiannual Report to Congress


Section 1129 Case Summaries
Chicago Man Failed to Notify SSA That His Mother Had Died for 6 Years
A joint account holder on the bank account into which his mother’s Title II disability benefits was deposited
failed to notify SSA that his mother died in August 2005. Instead, the man converted $86,220 to his own use
between September 2005 and February 2011. The man agreed to pay a penalty of $13,780 plus repayment of
the wrongfully converted $86,220 for a total CMP of $100,000. The man paid the entire $100,000 at the time
of settlement in a lump sum.

Denver Woman Used Two SSNs to Collect SSI and Retirement and Survivors Insurance Benefits
A woman used an alias name and second SSN to receive SSI payments between May 1998 and June 2002,
which resulted in her wrongful receipt of $57,134. In addition, she was concurrently receiving RSI Widow’s
benefits under her deceased husband’s SSN between June 2002 and October 2010, which resulted in the
wrongful receipt of $122,858. Based on the effective date of Section 1129’s material withholding provision, the
actionable amount for RSI benefits was $43,124. We negotiated a penalty of $89,606 and a double damages
assessment of $86,249, for a total CMP of $175,855.

Texas Father Stole his Children’s Disability Benefits
A Houston man receiving Title II disability benefits applied for Auxiliary Children’s Benefits on behalf of his
three children. He was able to receive their benefits and spend it on himself because he misrepresented that
they lived with him and that he cared for them. Several years later, during a child support hearing, his ex-
wife, who was nearly destitute due to his failure to pay these benefits plus child support, discovered he was
receiving his children’s benefits. The man agreed to pay a penalty of $20,000 plus repayment of the $29,076
in benefits that should have gone to his children, for a total CMP of $49,076.

Texas Mom Concealed Real Estate to Receive SSI for Her Son
A Corpus Christi mother whose son was receiving SSI concealed from SSA that she owned three properties in
Texas valued at thousands of dollars. She received steady rental income from these properties and also owned
several valuable annuities. Her failure to report these assets to SSA caused her to receive over $50,000 in
SSI payments for her son. We imposed a penalty of $56,000 plus repayment of the monies she fraudulently
received, for a total CMP of $107,657.

California Woman Failed to Report Marriage and Assets to Continue Collecting SSI
A woman receiving SSI from 2002 to 2013 neglected to tell SSA that she had gotten married in 2002 and
purchased a house with her husband in 2008. Over that time period, she also provided several false statements
and misrepresentations to SSA regarding her marital status, as well as who was actually living in her household.
We imposed a $71,000 penalty and a $62,717 assessment, for a total CMP of $133,717.

Texas Man Failed to Report Numerous Properties and Other Resources While Collecting SSI
A man received SSI from 2000 to 2012 by failing to report numerous real estate properties he owned with his
wife as well as other various assets as required of an SSI recipient. We imposed a $63,000 penalty and an
assessment of $78,492, for a total CMP of $141,492.

Washington Man Concealed Lawn Care Business to Receive Concurrent Title II/XVI Disability Benefits
In 2007, a man applied for and received concurrent Title II and XVI disability benefits. An OIG investigation
revealed that he had owned and operated a lawn care business since 2005 and had been actively advertising his
business by leaving business cards at local retailers and posting signs by local roadsides. The man admitted
he had been earning self-employment income exceeding the substantial gainful activity limits for disability
benefits, but he did not report the income to SSA because he knew his benefits would be terminated. He
agreed to repay the more than $85,000 in benefits he wrongly received, plus a $20,000 penalty for a total
CMP of $105,636.


October 1, 2013 - March 31, 2014                                                                           25
                                                 Table of Contents
Semiannual Report to Congress


SUPPORT

Budget
For FY 2014, our annual appropriation is $102.1 million, which supports an estimated end-of fiscal year staffing
level of 555. Salaries and benefits of our employees account for 88 percent of overall spending. The remaining
12 percent provides for basic infrastructure needs such as rent, reimbursable work authorizations, fleet, and
interagency service agreements, as well as necessary expenses for travel, training, communications, and general
procurement. We expend our appropriation each year supporting our responsibility to achieve the goals set
forth in the OIG Strategic Plan for Fiscal Years 2011 – 2015. The goals and accomplishments measured in the
Strategic Plan are also published in SSA’s Annual Congressional Budget Justification.


Human Resource Planning and Management
We actively pursue and work to retain the best possible employees. Our succession planning and knowledge-
transfer strategies focus on creating a culture to ensure smart recruitment, tailored internal training, effective
leadership transition efforts, and reciprocal developmental programs. In addition to participating with agency
developmental programs, we offer developmental programs to utilize knowledge transfer practices, bridge
knowledge gaps, and drive innovation for organizational performance improvement.

Information Technology
During this reporting period, OIG IT specialists continued working to update and improve the OIG systems
environment. This includes migration to a new infrastructure platform to provide redundancy and failover
for OIG applications and data including our National Investigative Case Management System as well as an
upgrade of our Business Process Management software, which provides workflows and approval chains for
automated OIG business processes.

We also continued the effort to implement business intelligence software to provide enhanced management
information to OIG executives and managers. Once these upgrades have been completed, we will continue to
automate our existing business processes in an effort to decrease costs and increase efficiency.

During this reporting period, we continued to expand our telework program, with plans for additional expansion
in FY 2014. We continue to make improvements to our telework infrastructure for increased capacity and
improved performance. The technologies we implemented allow for a productive remote workforce without
sacrificing the security of sensitive information. These steps align the OIG with the goals and requirements of
the Telework Enhancement Act of 2010.

Finally, our IT staff analyzes industry trends to find new technologies that may enhance our business processes.
During this period, we have continued to expand the use of virtual technologies and have begun to pilot virtual
desktop infrastructure for both internal and remote use, to reduce hardware and deployment costs, and enhance
data security. We have also utilized virtualization to decrease the number of physical servers in use, which has
reduced power consumption and increased system uptime. OIG IT specialists continue to meet the challenge
of providing a variety of IT support services for more than 70 OIG offices throughout the country.




26                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                    Semiannual Report to Congress




Allegation Management and Fugitive Enforcement Division
The OIG’s Fugitive Felon Enforcement Program identifies beneficiaries or recipients reported to have outstanding
felony arrest warrants and outstanding warrants for parole and probation violations (PPV). SSA shares its location
information for wanted felons or PPVs with local law enforcement agencies to assist in their apprehension efforts.
In turn, these agencies advise SSA on the disposition of a felony warrant so SSA can take appropriate administrative
action to stop payments for beneficiaries or recipients who have an outstanding felony warrant for escape from
custody, flight to avoid prosecution or confinement, and flight-escape. Because of the Clark Court Order, SSA
no longer stops payments for probation or parole violation warrants.
Our data-sharing efforts with law enforcement agencies contributed to the arrest of 144 subjects during the
reporting period, and more than 96,135 arrests since the program’s inception in 1996. The following are some
examples of fugitive felon activities during the past six months:
 •	 OIG agents and members of the U.S. Marshals Service, Capital Area Regional Fugitive Taskforce, arrested
    an SSA beneficiary wanted on several warrants dated November 2013 for Failure to Appear on charges
    of Possession with the Intent to Distribute Cocaine and Cocaine Hydrochloride, Driving Under the
    Influence, and Driving with a Suspended License. The SSA beneficiary, in order to avoid apprehension,
    kicked through the drywall of a closet in the apartment and entered the bedroom of a 5-year-old girl in
    the apartment next door. After a brief foot pursuit, the SSA beneficiary was apprehended. These felony
    warrants were issued by FBI, the Virginia State Police Department, the Dinwiddie County Sheriff’s Office,
    and the Petersburg Police Department.
 •	 OIG agents along with the Denver Police Department in Denver, Colorado arrested an SSA beneficiary
    wanted on a Parole Violation warrant for the charge of Aggravated Robbery dated August 2013. The felony
    warrant was issued by the Denver Police Department.



Outreach
During the reporting period, the Inspector General testified before:
•	 the House Committee on Oversight and Government Reform, Subcommittee on Energy Policy, Health Care,
   and Entitlements, regarding SSA’s management of the disability programs;
•	 the House Committee on Ways and Means, Subcommittee on Social Security, regarding the Social Security
   Disability Fraud Scheme in New York.
In January, the Inspector General traveled to New York City to join the Manhattan District Attorney and other
city officials for a press conference to announce the indictments of more than 100 individuals allegedly involved
in a vast and longstanding Social Security Disability Insurance fraud scheme.
The Inspector General made several presentations to external audiences during the reporting period, including
giving the keynote address about identity theft at a Federal Computer Week-sponsored event in November in
Washington, D.C. He also met with and spoke with organizations like the Social Security Advisory Board, the
Office of Management and Budget, and the National Association of Disability Examiners.
In January, the Inspector General and the Special Agent-in-Charge of the Boston Field Division appeared on the
Boston-based television program "Your Federal Government," to discuss the OIG’s mission and recent audit
and investigative accomplishments. The Inspector General also gave two interviews about the OIG’s mission
and activities to Federal News Radio.




October 1, 2013 - March 31, 2014                                                                                 27
                                                   Table of Contents
Reporting Requirements
         and
      Appendices




       Table of Contents
                                                                                          Semiannual Report to Congress



Reporting Requirements
This report meets the requirements of the Inspector General Act of 1978, as amended, and includes
information mandated by Congress.



      Section                             Requirement                          Page(s)

    Section 4(a)(2)    Review of legislation and regulations                   Appendix I


    Section 5(a)(1)    Significant problems, abuses, and deficiencies             P. 16


    Section 5(a)(2)    Recommendations with respect to significant problems,
                                                                                  P. 16
                       abuses, and deficiencies

    Section 5(a)(3)    Recommendations described in previous Semiannual        Appendix
                       Reports on which corrective actions are incomplete       F&G

    Section 5(a)(4)    Matters referred to prospective authorities and the
                                                                                  P. 16
                       prosecutions and convictions that have resulted

   Section 5(a)(5) &
                       Summary of instances where information was refused         N/A
    Section 6(b)(2)


    Section 5(a)(6)    List of audits                                          Appendix B


    Section 5(a)(7)    Summary of particularly significant reports                P. 11


                       Table showing the total number of audit reports and     Appendix
    Section 5(a)(8)
                       total dollar value of questioned costs                   A&B

                       Table showing the total number of audit reports and     Appendix
    Section 5(a)(9)
                       total dollar value of funds put to better use            A&B

                       Audit recommendations more than 6 months old for        Appendix
    Section 5(a)(10)
                       which no management decision has been made               A&B

                       Significant management decisions that were revised
    Section 5(a)(11)                                                              N/A
                       during the reporting period

                       Significant management decisions with which the
    Section 5(a)(12)                                                           Appendix D
                       Inspector General disagrees




October 1, 2013 - March 31, 2014                                                                                    29
                                                      Table of Contents
Semiannual Report to Congress



Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. Questioned costs are those costs that are challenged because of a violation
of law, regulation, etc. Unsupported costs are those costs that are questioned because they are not justified
by adequate documentation. This information is provided in accordance with P.L. 96-304 (the Supplemental
Appropriations and Recession Act of 1980) and the Inspector General Act of 1978, as amended.


                    Reports with Questioned Costs for the Reporting Period
                                       October 1, 2013 - March 31, 2014
                                                                                        Value                Value
                                                                 Number
                                                                                      Questioned          Unsupported
      A.	For which no management decision had
         been made by the commencement of                            16a                $512,128,637a        $61,640,437
         the reporting period.
      B.	Which were issued during the reporting
                                                                     7b                  $521,414,653                    $0
         period.


           	 Subtotal (A + B)                                        23c              $1,033,543,290         $61,640,437


      	Less:


      C.	For which a management decision was
                                                                     12                 $121,829,602         $61,640,437
         made during the reporting period.


      	 i.	 Dollar value of disallowed costs.                         7                 $118,359,829           $6,707,811


      	 ii.	 Dollar value of costs not disallowed.                    5                      $3,469,773      $54,932,626

      D.	For which no management decision had
         been made by the end of the reporting                       13                  $911,713,688                    $0
         period.

a.
      Number of reports and value questioned corrected from last reporting period.­
b.
      See Reports with Questioned Costs in Appendix B of this report.­
­c.
      Two reports each have two monetary recommendations; one report is reflected in section Ci and Cii and one report is reflected in Ci and D.




30                                                                                                              October 1, 2013 - March 31, 2014
                                                                         Table of Contents
                                                                                                                Semiannual Report to Congress



The following chart summarizes SSA’s response to our recommendations that funds be put to better use
through cost avoidances, budget savings, etc.


           Reports with Recommendations that Funds Be Put to Better Use
                  Reporting Period October 1, 2013 - March 31, 2014

                                                                                  Number             Dollar Value
  A. For which no management decision had been made
                                                                                         8           $1,088,079,574
     by the commencement of the reporting period.

  B.	 Which were issued during the reporting period.                                     2a              $6,609,726


  		         Subtotal (A + B)                                                            10b        $1,094,689,300


          	 Less:

  C.	 For which a management decision was made during
      the reporting period.

     i. Dollar value of recommendations that were agreed
                                                                                         2             $530,963,886
        to by management.

          (a) Based on proposed management action.                                       2             $530,963,886


          (b) Based on proposed legislative action.                                      0                            $0

     ii.	 Dollar value of costs not agreed to by
                                                                                         2                 $2,671,527
          management.

  		         Subtotal (i + ii)                                                           4              $533,635,413

  D. For which no management decision had been made
                                                                                         7              $561,053,887
     by the end of the reporting period.


   ­a.
         See Reports with Funds Put to Better Use in Appendix B of this report.
   ­b.
         One report has three monetary recommendations; two are reflected in section Cii and one is reflected in D.




October 1, 2013 - March 31, 2014                                                                                                           31
                                                                     Table of Contents
Semiannual Report to Congress


Appendix B: Reports Issued
                           Reports with Non-Monetary Findings
                              October 1, 2013 - March 31, 2014
Audit Number                                    Report                                 Issue Date

                     Cost Savings Planned and Achieved Through the Social
     A-14-13-13042   Security Administration's Information Technology                  10/1/2013
                     Development Initiatives

                     The Social Security Administration's Process to Identify and
     A-14-13-13050   Monitor the Security of Hardware Devices Connected to its         10/1/2013
                     Network

                     Sensitive Information at Social Security Administration
     A-01-13-13025                                                                     10/18/2013
                     Offices

                     Single Audit of the State of New Hampshire for the Fiscal
 A-77-14-00001                                                                         11/1/2013
                     Year Ended June 30, 2012

                     Administrative Costs Claimed by the Georgia Disability
  A-04-13-13058                                                                        11/4/2013
                     Adjudication Services

                     Representative Payees Residing in Foreign Countries or
  A-02-13-13048      U.S. Territories Who Represent Beneficiaries Residing in the      11/8/2013
                     United States

     A-15-12-11290   Field Office Performance                                          11/8/2013

                     Single Audit of the State of Utah for the Fiscal Year Ended
 A-77-14-00002                                                                         11/25/2013
                     June 30, 2012

                     The Social Security Administration's Compliance with the
     A-14-13-13086   Federal Information Security Management Act of 2002 for           11/26/2013
                     Fiscal Year 2013

                     Single Audit of the State of New Jersey for the Fiscal Year
 A-77-14-00003                                                                         11/27/2013
                     Ended June 30, 2012

                     Fiscal Year 2013 Inspector General Statement on the
 A-02-14-14056       Social Security Administration’s Major Management and             12/6/2013
                     Performance Challenges

                     Fiscal Year 2013 Financial Statement Audit of the Social
     A-15-13-13085                                                                     12/9/2013
                     Security Administration

                     Single Audit of the Commonwealth of Pennsylvania for the
 A-77-14-00004                                                                         12/13/2013
                     Fiscal Year Ended June 30, 2012

                     Single Audit of the Hawaii Department of Human Services
 A-77-14-00005                                                                         12/13/2013
                     for the Fiscal Year Ended June 30, 2012

     A-12-13-13044   Analysis of Hearing Offices Using Key Risk Factors                12/20/2013

                     Single Audit of the State of North Carolina for the Fiscal Year
 A-77-14-00006                                                                         12/23/2013
                     Ended June 30, 2012




32                                                                                       October 1, 2013 - March 31, 2014
                                                        Table of Contents
                                                                                     Semiannual Report to Congress




                         Reports with Non-Monetary Findings
                            October 1, 2013 - March 31, 2014
Audit Number                                  Report                               Issue Date
                   The Social Security Administration's Reporting of High-dollar
   A-15-13-13115   Overpayments Under Executive Order 13520 in Fiscal Year         12/26/2013
                   2013
                   Single Audit of the State of Ohio for the Fiscal Year Ended
 A-77-14-00007                                                                     1/10/2014
                   June 30, 2012

                   Fiscal Year 2013 Risk Assessment of the Social Security
  A-13-14-14055                                                                    1/30/2014
                   Administration's Charge Card Programs

  A-15-12-11233    Supplemental Security Income Telephone Wage Reporting           2/6/2014

                   Security of the Social Security Administration's Wireless
  A-14-13-13063                                                                    2/11/2014
                   Networks (Limited Distribution)

                   Claimant Representatives at the Disability Determination
  A-01-13-13097                                                                    2/27/2014
                   Services Level

  A-12-13-13039    Request for Review Workloads at the Appeals Council              3/7/2014

                   Bond and Financial Credit Risk Requirements for Non-
  A-05-12-11225                                                                    3/28/2014
                   governmental Fee-for-Service Representative Payees

                   Unused Facilities and Capacity at Social Security
  A-15-13-13103                                                                    3/28/2014
                   Administration Headquarters

  A-03-12-21269    Improper Use of Children's Social Security Numbers              3/31/2014




October 1, 2013 - March 31, 2014                                                                               33
                                                     Table of Contents
Semiannual Report to Congress




                                  Reports with Questioned Costs
                             October 1, 2013 - March 31, 2014

 Audit Number        Issue Date                       Report                       Dollar Amount

                                    Special Disability Workload Payments Made
     A-13-11-21188   10/18/2013                                                       $1,022,032
                                    to Incarcerated Beneficiaries

                                    Processing Internal Revenue Service Alerts
  A-03-13-13106      12/26/2013                                                      $12,022,216
                                    for Supplemental Security Income Recipients

                                    Concurrent Beneficiaries Improperly
  A-06-12-22131      1/14/2014      Receiving Payments in Excess of Federal           $3,370,643
                                    Limits

                                    Improper Payments Resulting from
 A-09-12-22100        2/7/2014                                                        $6,769,458
                                    Unresolved Delayed Claimants

                                    Representative Payee Selections Pending in
  A-09-12-11252      2/27/2014                                                      $397,517,226
                                    the Representative Payee System

                                    Adjustment of Monthly Benefits Under the
  A-09-13-13087      3/11/2014                                                       $40,957,450
                                    Family Maximum Provisions

                                    Spouses Eligible for Higher Retirement
 A-09-12-21292       3/11/2014                                                       $59,755,628
                                    Benefits

Total                                                                               $521,414,653




                           Reports with Funds Put to Better Use
                             October 1, 2013 - March 31, 2014

Audit Number Issue Date                              Report                       Dollar Amount

                                   Concurrent Beneficiaries Improperly
  A-06-12-22131      1/14/2014     Receiving Payments in Excess of Federal            $1,991,991
                                   Limits

                                   Adjustment of Monthly Benefits Under the
 A-09-13-13087       3/11/2014                                                        $4,617,735
                                   Family Maximum Provisions

Total                                                                                $6,609,726




34                                                                                     October 1, 2013 - March 31, 2014
                                                      Table of Contents
                                                                                         Semiannual Report to Congress



Appendix C: Reporting Requirements Under the
Omnibus Consolidated Appropriations Act of FY 1997
To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are providing
requisite data for the first half of FY 2014 from the Offices of Investigations and Audit in this report.
Office of Investigations
We are reporting over $58 million in SSA funds as a result of our investigative activities in this reporting period
(10/01/13 – 03/31/14). These funds are broken down in the table below.

                                      Investigative Activities

                      1st Quarter                 2nd Quarter
                                                                                      Total
                  10/1/13 – 12/31/13            1/1/14 – 3/31/14

    Court
   Ordered             $9,922,709                   $8,258,421                      $18,181,130
  Restitution

  Recoveries           $14,258,391                  $20,518,168                     $34,776,559


     Fines             $2,292,668                   $2,259,991                      $4,552,659


 Settlements/
                        $388,880                     $364,261                        $753,141
  Judgments


    TOTAL             $26,862,648                  $31,400,841                     $58,263,489



Office of Audit
SSA management informed us that the Agency has completed implementing recommendations from 4 audit reports
during this period valued at over $2.81 billion.
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS ACTING AS REPRESENTATIVE PAYEES
(A-07-12-21265, 9/23/2013)
We recommended that SSA conduct capability and suitability determinations for the 22 representative payees we found
may have been incapable of managing or directing the management of SSA benefits. The implemented value of this
recommendation is $438,432.
SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR, OR RECEIVING, RUSSIAN PENSIONS
(A-01-12-21238, 12/10/2012)
We recommended that SSA follow up on the cases in our sample in which the recipients are receiving or eligible for
Russian pensions and take appropriate corrective action. The implemented value of this recommendation is $5,134,041.
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF A REPRESENTATIVE PAYEE (A-07-11-11110,
9/27/2012)
We recommended that SSA determine whether the 6,076 concurrent beneficiaries should have their benefits paid directly
or through a representative payee. The implemented value of this recommendation is $23,717,592.
We recommended that SSA perform a capability determination for the 64 beneficiaries we identified as possibly incapable of
managing or directing the management of their benefits. The implemented value of this recommendation is $2,404,112,052.




October 1, 2013 - March 31, 2014                                                                                       35
                                                      Table of Contents
Semiannual Report to Congress



FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED ON THE MASTER
EARNINGS FILE (A-01-08-28075, 4/15/2009)
We recommended that SSA develop and implement a plan to allocate more resources to timely perform work-
related continuing disability reviews (CDRs)---and assess overpayments resulting from work activity---for cases
identified by the Agency’s earnings enforcement process. The implemented value of this recommendation is
$381,563,100.




Appendix D: Significant Management Decisions With Which the
Inspector General Disagrees
None




36                                                                                    October 1, 2013 - March 31, 2014
                                                    Table of Contents
                                                                                                               Semiannual Report to Congress



Appendix E: Collections from Investigations and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional information
concerning actual cumulative collections and offsets achieved as a result of OIG activities each semiannual
period.

Office of Investigations

                        Total Restitution Reported by DOJ as Collected for SSA

                                       Total Number of
                                                                        Court-Ordered
                                     Individuals Assigned                                           Total Restitution
                   FY                                                 Restitution for This
                                        Court-Ordered                                               Collected by DOJ
                                                                            Period
                                          Restitution
                  2012                           580                       $35,388,290                 See Footnote1

                  2013                            532                      $35,549,341                 See Footnote1

                2014
                                                 227                       $15,183,004                 See Footnote1
         (10/1/13 - 3/31/14)

                TOTAL                            1,339                     $86,120,635                 See Footnote1
   1
       DOJ migrated collection data to a new computer system and is working to generate reports that will provide us with this information.


                              Recovery Actions Based on OI Investigations

                                         Total Number of Recovery
                   FY                                                                    Amount for Recovery
                                              Actions Initiated

                  2012                                   1,382                                  $53,354,863

                  2013                                   1,622                                  $54,903,601

                2014
                                                         837                                    $34,776,559
         (10/1/13 - 3/31/14)

                TOTAL                                    3,841                                 $143,035,023




October 1, 2013 - March 31, 2014                                                                                                              37
                                                                    Table of Contents
Semiannual Report to Congress


Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. This information is prepared in coordination with SSA’s management
officials and was current as of March 31, 2014.


                                  SSA’s Responses to OIG’s Recommendations
                           Recovery or Redirection of Questioned and Unsupported Costs1
               Reports with      Questioned/
                                                      Management         Amount Collected Amount Written-
       FY      Questioned        Unsupported                                                                                 Balance2
                                                      Concurrence        or to be Recovered Off/Adjustments
                  Costs             Costs

      2012           29          $1,170,466,288         $862,414,550         $850,604,002           $293,648,925              $26,213,361


      2013           23           $886,384,392         $440,675,040            $48,140,973            $77,991,372           $760,252,047


      2014            7            $521,414,653            $7,791,490                      0           $3,370,643           $518,044,010


    TOTAL            59          $2,578,265,333       $1,310,881,080          $898,744,975          $375,010,940           $1,304,509,418

1
    The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
2
    Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




38                                                                                                               October 1, 2013 - March 31, 2014
                                                                      Table of Contents
                                                                                   Semiannual Report to Congress



APPENDIX F: Significant Monetary Recommendations From Prior
FYs for Which Corrective Actions Have Not Been Completed
USEFULNESS OF DEPARTMENT OF HOMELAND SECURITY TRAVEL DATA TO IDENTIFY SUPPLEMENTAL SECURITY
INCOME RECIPIENTS WHO ARE OUTSIDE THE UNITED STATES (A-01-11-01142, 2/1/2013)
Results of Review: Although there are legal and technical challenges in obtaining data from the DHS to identify
SSI recipients who are absent from the United States, we estimated 35,068 SSI recipients had approximately
$152 million in overpayments because of unreported absences from the United States between September
2009 and August 2011. Furthermore, millions of dollars more in overpayments could be identified if SSA
includes all SSI recipients, regardless of their country of birth or associated bank. If our results using sample
data associated with one bank represent all banks, we estimate our review would have identified an additional
$289 million in overpayments.
Developing a process with DHS—and if necessary, the Department of State—would be a long-term initiative;
and SSA has a history of overcoming legal and technical factors with other initiatives it has pursued to address
improper payments. Ultimately, the other agencies have to be willing to work with SSA.
Recommendation: Reach out to DHS again (and if necessary, the Department of State) to attempt to create
a process that provides the necessary information to identify all (not just foreign-born) SSI recipients outside
the United States for longer than 30 days, which could include proposing legislative changes.
Agency Response: SSA agreed with the recommendation.
Valued at: $152,200,827 in questioned costs.
Corrective Action: SSA is exploring a data exchange opportunity with the State Department to identify SSI
recipients who leave the country. SSA has two outgoing agreements with State (#810 and #10011) where the
Agency helps verify Social Security Numbers (SSN) for passport issuance. In return, SSA would like to know
what happens with those passports, and is in the process of identifying the Agency’s State Department contact
to begin discussions.
SSA staff are exploring new data sets; exploring the legality of having agreements with major airline carriers to
also identify when SSI recipients leave the country and do not need a passport (like Puerto Rico). The Agency
is still in the very early stages of both of these ideas.
DUALLY ENTITLED BENEFICIARIES WHO ARE SUBJECT TO THE WINDFALL ELIMINATION PROVISION AND
GOVERNMENT PENSION OFFSET (A-09-12-11210, 1/31/2013)
Results of Review: SSA needs to improve its controls to ensure it properly imposes the Windfall Elimination
Provision (WEP) and Government Pension Offset (GPO) for dually entitled beneficiaries. We estimate that SSA
•	 overpaid $19.2 million in retirement benefits to 2,046 beneficiaries because WEP was not properly applied,
•	 overpaid $14.6 million in spousal benefits to 1,662 beneficiaries because GPO was not properly imposed, and
•	 will overpay $12.7 million annually to 3,708 beneficiaries unless it takes action to identify and correct these
   payment errors.
We also estimate that 3,961 beneficiaries were exempt from WEP and 3,148 were exempt from GPO, but SSA
employees did not record the exemption reason on the Master Beneficiary Record, as required.
Finally, SSA did not take action to impose WEP and GPO on a population of beneficiaries identified in our prior
audit. Consequently, we estimate that SSA overpaid these beneficiaries an additional $181.6 million.
Recommendation: Determine whether there is a cost-effective method to identify and correct the population
of overpaid dually entitled beneficiaries in current pay whose benefits should be reduced for WEP or GPO.
Agency Response: SSA agreed with the recommendation.
Valued at: $214,514,795 in questioned costs.




October 1, 2013 - March 31, 2014                                                                               39
                                                  Table of Contents
Semiannual Report to Congress



Corrective Action: SSA began the first phase of its review in December 2013. The second phase was scheduled
to begin in March 2014, and the third and final phase should begin around the end of April 2014. SSA intends
to have the analysis completed and report by the end of August 2014.
THE SOCIAL SECURITY ADMINISTRATION’S DEVELOPMENT OF EARNINGS ALERTS FOR SUPPLEMENTAL SECURITY
INCOME RECIPIENTS (A-02-11-11185, 12/20/2012)
Results of Review: SSA’s development of SSI earnings alerts was not fully effective. While SSA has the opportunity
to record the largest possible overpayment caused by earnings if it diligently pursues earnings alerts, over 86
percent of the 16,952 earning alerts we identified in May 2009 had been pending over 6 months. In May 2010,
2,883 of the 16,952 earnings alerts were still pending.
We reviewed a sample of 250 of the 2,883 recipients in April 2011, which was 28 months after the month SSA
systems generated the alerts. We reviewed cases that SSA had developed and those that it did not. For those
not developed, we identified improper payments caused by the earnings that generated the alerts. We also
reviewed cases SSA developed and found additional improper payments that SSA did not identify. Based on
these results, we estimate that SSA could have recorded approximately $110 million more in SSI overpayments
for almost 25,140 recipients than it identified if it diligently pursued earnings alerts.
Furthermore, some of the earnings alerts that had been generated may have been unnecessary. Of the 250
recipients in our sample, 46 had alerts identifying earnings that were too low to change the recipient’s payment
amount.
Recommendation: Evaluate whether it is cost-effective to establish earnings alerts more likely to lead to payment
changes. More specifically, SSA should consider using focused criteria to generate earnings alerts that take into
account other factors that determine the SSI payment amount along with the amount of earnings identified.
Agency Response: SSA agreed with the recommendation.
Valued at: $110,142,700 in questioned costs.
Corrective Action: SSA is conducting a statistical modeling analysis of FY 2013 Change Rate Study cohort data
to determine if targeted criteria can be used to identify a more cost-effective process to generate earnings alerts
to identify and correct SSI overpayments. SSA anticipates completing its analysis in May 2014, and at that
time, the Agency will have findings and recommendations from the study.
CHILDHOOD DISABILITY                BENEFICIARIES           WITH       AN   INCORRECT      WA I T I N G   PERIOD
(A-09-11-21158, 12/20/2012)
Results of Review: SSA needs to improve its controls to ensure childhood disability beneficiaries do not serve
a 5-month waiting period before becoming entitled to disability benefits. We found that SSA incorrectly applied
a 5-month waiting period before childhood disability beneficiaries became entitled to benefits. Based on our
random sample, we estimate that SSA
•	 established an incorrect initial date of entitlement to disability benefits for 5,104 beneficiaries;
•	 underpaid 3,202 of the 5,104 beneficiaries about $7.3 million in childhood disability benefits; and
•	 established an incorrect initial date of entitlement to Medicare for 4,977 of the 5,104 beneficiaries.
Generally, these beneficiaries were entitled to disability benefits and Medicare coverage
5 months sooner than the date SSA established.
Recommendation: Evaluate the results of the Agency’s corrective action for the 161 beneficiaries and determine
whether it should review our population of 6,340 disabled children who may have incorrectly served a 5-month
waiting period.
Agency Response: SSA agreed with the recommendation.
Valued at: $7,101,797 in questioned costs.




40                                                                                  October 1, 2013 - March 31, 2014
                                                   Table of Contents
                                                                                    Semiannual Report to Congress



Corrective Action: SSA is finalizing actions on the 161 cases. After receiving the results, the Agency will evaluate
if corrective action should be taken on the remaining 6,340 cases.
ACCUMULATED FUNDS PAYABLE TO BENEFICIARIES OR THEIR REPRESENTATIVE PAYEES (A-09-12-21236, 12/11/2012)
Results of Review: SSA needed to improve controls to ensure it properly and timely paid accumulated funds to
Title II beneficiaries or their representative payees. Based on a random sample, we estimate that
•	 4,174 beneficiaries had accumulated funds totaling approximately $29.9 million that SSA had not paid to
   the beneficiaries or their representative payees;
•	 909 beneficiaries had approximately $18.6 million in accumulated funds that were correctly paid but not
   timely; and
•	 248 representative payees were paid accumulated funds totaling approximately $4 million, but SSA had not
   evaluated their ability to manage the funds, as required.
This occurred because SSA did not always (1) establish manual diaries to control the payment of accumulated
funds, (2) pay accumulated funds to representative payees when required, or (3) pay all accumulated funds
due and payable upon the selection of a representative payee.
Recommendation: Develop a cost-effective method for identifying and paying, as appropriate, Title II beneficiaries
who have unpaid accumulated funds.
Agency Response: SSA agreed with the recommendation.
Valued at: $29,211,452 in questioned costs.
Corrective Action: The Deputy Commissioner for Retirement and Disability Policy will work with the Office of
Systems and the Deputy Commissioner for Operations to determine the feasibility of developing a cost-effective
method for identifying and paying, as appropriate, Title II beneficiaries who have unpaid accumulated funds.
TERMINATION OF DISABILITY BENEFITS FOLLOWING A CONTINUING DISABILITY REVIEW CESSATION
DETERMINATION (A-07-12-11211, 11/1/2012)
Results of Review: We identified populations of 25,564 DI beneficiaries and 67,943 SSI recipients who received
medical cessation determinations during Calendar Years (CY) 2005 through 2010 but continued to receive
monthly benefit payments more than 2 months after the medical cessation determination. Of 250 DI beneficiaries
sampled, we found 30 percent improperly received benefit payments of approximately $48.9 million because
payments were not terminated timely. Of 250 SSI recipients sampled, 16 percent improperly received $34.7
million because payments were not terminated timely.
These improper payments occurred, in part, because SSA lacked adequate controls and did not have automated
systems for processing medical cessation determinations. SSA employees were aware of the systems limitations
and were to manually check cases to ensure the termination actions were accomplished. According to SSA,
reduced resources and increased workloads may have prompted employees to rely on the system, rather than
manually checking each case to ensure timely termination of benefits.
From November 2003 through June 2009, SSA took actions to identify DI beneficiaries and SSI recipients who
continued receiving benefit payments after medical cessation determinations. However, since June 2009, SSA
has not routinely identified cases where benefits were not terminated following medical cessation determinations.
According to SSA, this was the result of resource limitations and other work priorities.
Recommendation: Enhance the ability of the processing system to perform automated terminations to ensure
the timely termination of benefits following a medical cessation determination.
Agency Response: SSA agreed with the recommendation.
Valued at: $83,583,935 in questioned costs.
Corrective Action: For the FY 2013 IT budget process, the Office of Disability Adjudication and Review (ODAR)
requested systems upgrades and enhancements to automate the termination of disability cessation cases that



October 1, 2013 - March 31, 2014                                                                                 41
                                                   Table of Contents
Semiannual Report to Congress



are currently subject to manual termination. SSA is working on a systems update to ODAR’s Hearing Office
and Appeals Council case processing systems (Case Processing and Management System (CPMS) and Appeals
Review Processing System (ARPS)).
The update will fix an issue that causes some Title II disability and concurrent Title II disability and Title XVI adult
disability cessations to fail to propagate correctly into CPMS and automatically terminate benefits. A September
2014 CPMS/ARPS systems release should include this update. However, this update does not address Title XVI
only, Title XVI disabled children, or Title II benefits for disabled children or widow/ers. SSA is proposing additional
systems changes for the FY 2015 IT budget process. In the interim, SSA is drafting additional reminders and
updating its policy instructions to help ensure the Agency timely terminates disability cessations.
DISABLED INDIVIDUALS POTENTIALLY ELIGIBLE AS AUXILIARY CHILD BENEFICIARIES (A-13-10-10146, 6/12/2012)
Results of Review: Although SSA had taken actions to identify and prevent missed entitlements, we identified SSI
recipients who were also eligible for OASDI. Our analysis of 100 SSI recipients found 95 were eligible for OASDI
as auxiliary child beneficiaries. Of these, we identified 16 SSI recipients who were due OASDI underpayments
totaling about $71,000. We estimate approximately 2,160 SSI recipients were eligible for OASDI and were due
underpayments totaling approximately $9.6 million.
In February 2012, we identified 14,434 SSI recipients—from all 20 segments of SSA’s records—who were
potentially entitled disabled child beneficiaries. We provided this information to the Agency for corrective action.
Recommendation: Develop and implement a cost-effective strategy to assess the 14,434 recipients we
identified to correctly pay those recipients eligible for OASDI as auxiliary child beneficiaries and pay the OASDI
underpayments due the recipients, as appropriate.
Agency Response: SSA agreed with the recommendation.
Valued at: $9,582,380 in questioned costs.
Corrective Action: As resources allow, SSA will review the 14,434 cases. The review will involve SSA field offices
and processing centers analyzing and developing each case. SSA expects processing these cases will take some
time, due to the volume and complexity of these cases. The Agency expects to complete its determinations, and
pay any OASDI underpayments by the end of the second quarter or beginning of the third quarter of FY 2014.
INDIVIDUAL REPRESENTATIVE PAYEES WHO MISUSE BENEFITS (A-13-10-10182, 5/4/2012)
Results of Review: SSA did not always take appropriate actions concerning individual representative payees
who were serving 14 or fewer beneficiaries and who misused benefit payments. Specifically, the Agency did not
always obtain restitution from payees when it could use benefit adjustment to do so; pay beneficiaries when
Agency negligence was determined; document negligence decisions; refer instances of misuse to the Office
of the Inspector General; make restitution to beneficiaries when misused funds were collected in installments
from payees; follow policy regarding retention of payees who commit misuse; and record misuse-related data
accurately in the Representative Payee System.
 SSA had taken actions intended to improve its oversight and management of these payees. In October 2011
and January 2012, SSA released versions of its Electronic Representative Payee System Misuse System and
revised its policies. However, SSA needs to take additional actions to improve its oversight and management
of individual representative payees serving 14 or fewer beneficiaries who misused benefit payments.
Recommendation: Use, when appropriate, benefit adjustment to obtain restitution from the 408 payees we
identified to recover about $2.1 million in misused funds.
Agency Response: SSA agreed with the recommendation.
Valued at: $2,112,581
Corrective Action: SSA stated that the field offices and processing centers require additional time to take action
on the 408 cases OIG identified. The Agency’s target completion time frame is the first quarter of CY 2014.




42                                                                                     October 1, 2013 - March 31, 2014
                                                     Table of Contents
                                                                                   Semiannual Report to Congress



ANNUAL EARNINGS TEST UNDERPAYMENTS PAYABLE TO BENEFICIARIES (A-09-11-11128, 4/6/2012)
Results of Review: SSA improperly paid beneficiaries whose Master Beneficiary Record (MBR) annual report
data exceeded their earnings on the Master Earning File (MEF). We estimated that SSA improperly paid 10,644
beneficiaries about $15 million during CYs 2005 through 2008. In addition, unless SSA revises the Earnings
Enforcement Operation (EEO), we estimated it would improperly pay about $3.7 million, annually, to 2,661
beneficiaries.
The improper payments occurred because SSA’s policy is to exclude from the EEO beneficiaries whose MBR
annual report data exceeded the earnings recorded on SSA’s MEF. Finally, we found that SSA should not rely
on the annual report data on the MBR to determine whether beneficiaries were properly paid. Specifically, we
found that annual report data on the MBR (1) were estimated amounts, (2) contained obvious recording errors,
and (3) included earnings that were not subject to the annual earning test.
Recommendation: Review its policies, procedures, and systems concerning earnings and benefit computations
to provide accurate results for Title II beneficiaries.
Agency Response: SSA agreed with the recommendation.
Valued at: $3,754,533 in funds put to better use.
Corrective Action: While SSA’s Office of Systems completed the migration of Automated Job Stream 3 to Title
II Redesign in August 2012, there was a release to correct issues with the month of entitlement and rates in
February 2013. The first enforcement pass after this release took place in May 2013. SSA Policy staff is revising
all of the month of entitlement Program Operations Manual System guides, which should be completed by
the end of the CY. After this revision is released, the Agency will evaluate the outcome of this first pass to the
Master Earnings File and the available resources, and SSA will determine if it will conduct a study.
TITLE II BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED AND WHO HAVE A DATE OF DEATH ON
THE NUMIDENT (A-09-10-10117, 4/28/2011)
Results of Review: SSA needs to improve controls to ensure it takes timely and proper actions to resolve death
information on the Numident for suspended beneficiaries. We estimate that:
•	 4,699 beneficiaries remained in suspended pay status despite the death information on their Numident.
   Of these, we estimate 2,976 were improperly paid approximately $23.8 million.
•	 2,715 beneficiaries’ personally identifiable information was at risk of being released to the public.
•	 157 beneficiaries whose benefits were terminated were improperly paid $342,114.
Recommendation: Identify and take correction action on the remaining population of 6,277 suspended
beneficiaries who had a date of death on the Numident.
Agency Response: SSA agreed with the recommendation.
Valued at: $22,855,376 in questioned costs.
Corrective Action: The Agency has reduced the number of cases to 157. A request was sent to Systems in
September 2013 asking that they run the 157 SSNs again to see if the date of death is still missing from the
payment record so SSA can determine which cases still need to be worked. The Agency has not received a reply
from Systems. SSA expected a response by the end of December 2013 on when Systems can provide results.
Recommendation: Take appropriate action to terminate benefits or remove erroneous death information from
the Numident for the 180 beneficiaries identified by our audit.
Agency Response: SSA agreed with the recommendation.
Valued at: $910,282 in questioned costs.
Corrective Action: SSA is working with its Office of Budget, Finance, Quality, and Management on an automated
solution for taking corrective action on these records. The Agency is releasing 180 cases to the regions and
expects completion by the end of CY 2014.



October 1, 2013 - March 31, 2014                                                                               43
                                                    Table of Contents
Semiannual Report to Congress



BENEFITS PAYABLE TO CHILD BENEFICIARIES WHO NO LONGER NEED REPRESENTATIVE PAYEES (A-09-09-29116,
8/20/2010)
Results of Review: SSA needed to improve controls to ensure child beneficiaries who attained age 18 were paid
benefits that had been previously withheld pending the selection of a representative payee. Based on a random
sample of beneficiaries, we found that SSA did not pay an estimated 13,464 beneficiaries approximately $31.2
million in withheld benefits.
Generally, these errors occurred because SSA did not generate a systems alert to identify beneficiaries who
should have been paid withheld benefits when they attained age 18 or SSA employees did not take corrective
actions to pay withheld benefits when processing student awards when a child attained age 18.
Recommendation: Identify and take corrective action on the population of child beneficiaries over age 18 whose
benefits were withheld pending the selection of a representative payee.
Agency Response: SSA agreed with the recommendation.
Valued at: $31,052,839 in questioned costs.
Corrective Action: The processing centers (PC) completed their initial case reviews. In October 2013, SSA sent
come-in notices as part of a mass Central Office mailing to the individuals for whom 1) underpayments are due
and 2) SSA has addresses from an Office of the Chief Actuary/Office of Quality Performance automated search.
FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER SUSPENDING COLLECTION EFFORTS
ON TITLE XVI OVERPAYMENTS (A-04-09-19039, 9/2/2009)
Results of Review: We found that SSA took action on three of the recommendations in our prior report. However,
funding limitations delayed development of an automated system that would address the two remaining
recommendations. SSA’s corrective actions resulted in some improvements in the error rates we previously
reported. However, we still found similar conditions identified in the prior report.
We also found that SSA did not always (1) document the justification for the decisions to suspend overpayment
collection efforts and (2) obtain the required management approval before suspending an overpayment. On
occasion, SSA personnel suspended collection efforts when debtors or the debtors’ representative payees
had reported earnings that may have enabled some repayment. Also, SSA personnel suspended collections of
some debts and classified the debtors as unable to locate or out of the country even though we did not find
evidence that SSA attempted to contact the debtors or the debtors’ representative payees through their current
employer. Overall, we estimated for 6,500 cases, totaling $52.2 million, SSA personnel did not follow policies
and procedures when it suspended overpayment collection efforts.
Recommendation: Consider revising the May 2009 policy to require the 2-PIN process (management approval)
for suspension decisions controlled by the Recovery and Collection of Overpayment Process.
Valued at: $22,639,420 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Office of Systems determined this would require complex changes to the IBIL screen,
and would have to be submitted as a Strategic Information Technology Assessment and Review (SITAR) project.
There are no plans to submit a SITAR request at this time.


Significant Monetary Recommendations From Prior Semiannual
Reports to Congress for Which Recent Corrective Actions Have
Been Made
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF A REPRESENTATIVE PAYEE (A-07-11-11110,
9/27/2012)




44                                                                              October 1, 2013 - March 31, 2014
                                                 Table of Contents
                                                                                    Semiannual Report to Congress



Results of Review: We estimated that over 208,000 of the 895,151 mentally impaired beneficiaries in our
population received over $200 million in monthly benefits and may have been incapable of managing or
directing the management of their benefits. If these beneficiaries are, in fact, in need of a representative payee,
we further estimate over $2.4 billion in benefits will be at risk of inappropriate use, annually.
SSA policy states that it must remain alert to indications of a change in a beneficiary’s condition or circumstances
that might indicate a need for a new capability determination. However, over $2.4 billion in benefits may be at
risk of inappropriate use because SSA does not have a process to identify mentally impaired beneficiaries who
become incapable of managing or directing the management of their benefits after their initial entitlement.
In addition, we estimated that approximately $2 million in monthly benefits are at risk because 6,076 beneficiaries
received benefits under both the DI and SSI programs, but only have a representative payee assigned for 1 of the
programs. If these beneficiaries are, in fact, in need of a representative payee, we further estimate approximately
$24 million in benefits will be at risk of inappropriate use, annually.
Recommendation: Determine whether the 6,076 concurrent beneficiaries should have their benefits paid directly
or through a representative payee.
Agency Response: SSA agreed with the recommendation.
Valued at: $23,717,592 in funds put to better use.
Corrective Action: SSA completed each case associated with this recommendation by taking appropriate actions
to pay beneficiaries directly or appoint a payee.
Recommendation: Perform a capability determination for the 64 beneficiaries we identified as possibly incapable
of managing or directing the management of their benefits.
Agency Response: SSA agreed with the recommendation.
Valued at: $2,404,112,052 in funds put to better use.
Corrective Action: SSA completed each case associated with this recommendation. Of the 64 cases, the
Agency determined that 47 beneficiaries were capable of handling their own benefits; appointed payees for
15 beneficiaries; and placed one beneficiary into suspense for Whereabouts Unknown. One beneficiary is in
suspense due to incarceration.
FOLLOW-UP ON DISABLED TITLE II BENEFICIARIES WITH EARNINGS REPORTED ON THE MASTER EARNINGS
FILE (A-01-08-28075, 4/15/2009)
Results of Review: Our audit found that the Agency made efforts to reduce overpayments resulting from work
activity. However, we found that SSA did not evaluate all earnings, and as a result, overpayments resulted from
work activity.
Based on our review, we estimate that approximately $3.1 billion was overpaid to about 173,000 disabled
beneficiaries because of work activity. Although SSA identified about 58 percent of these overpayments,
we estimate the remaining 42 percent—approximately $1.3 billion—went undetected by the Agency to
about 49,000 disabled beneficiaries. In addition, we estimate SSA will continue to incorrectly pay about
$382 million over the next 12 months to individuals who are no longer entitled to disability benefits if action is
not taken by the Agency.
SSA performed 170,664 work-related CDRs in 2008 at a unit cost of $397.45. Based on our review, we estimate
about $3.1 billion was overpaid to approximately 173,000 disabled beneficiaries (out of 518,080 in the estimated
universe) because of work activity. To perform work-related CDRs for all 518,080 disabled beneficiaries, it would
cost SSA about $206 million (assuming the $397.45 unit cost remains the same). This results in a potential
benefit-cost ratio of $15.0 to $1.0.
We recognize SSA’s efforts to improve the work-related CDR process. In addition, we acknowledge the Agency’s
limited resources with which to perform this workload. However, we believe SSA may achieve greater savings
in the long-term if the Agency could provide the resources to perform work-related CDRs for all disabled
beneficiaries with substantial earnings reported on the Master Earnings File.



October 1, 2013 - March 31, 2014                                                                                 45
                                                     Table of Contents
Semiannual Report to Congress


Recommendation: Develop and implement a plan to allocate more resources to timely perform work-related
continuing disability reviews—and assess overpayments resulting from work activity—for cases identified by
the Agency’s earnings enforcement process.
Valued at: $1,335,815,580 in questioned costs and $381,563,100 in funds put to better use.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA made the following improvements to the Agency’s work-related CDR processes and
management information.
•	 SSA established a dedicated staff, which targets the oldest cases.
•	 SSA now prioritizes enforcement alerts (for cases with unreported earnings) by the amount of earnings.
   SSA works the cases with highest earnings first to minimize overpayments.
•	 SSA improved communications between its field offices and processing centers for priority cases that must
   be transferred between components.
•	 SSA established an Agency standard report for work CDR management information and overpayments. It
   is currently in the final stages of validation.
•	 SSA is establishing streamlined earnings reporting processes via telephone and Internet.
In addition, as recommended by the Government Accountability Office, SSA is evaluating the feasibility of:
•	 Periodically matching disability beneficiaries and recipients to Federal payroll data.
•	 Using the Automated Earnings Reappraisal Operation to identify individuals who have returned to work.




46                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                  Semiannual Report to Congress



APPENDIX G: Significant Non-Monetary Recommendations From
Prior FYs for Which Corrective Actions Have Not Been Completed
IDENTIFYING AND MONITORING RISK FACTORS AT HEARING OFFICES (A-12-12-11289, 1/24/2013)
Results of Review: We found that ODAR had created 19 ranking reports that measured hearing office performance
using a single risk factor, such as average processing time or pending cases per administrative law judge (ALJ).
However, ODAR had not established a process to rank hearing office performance using a combination of risk
factors. In FY 2011, ODAR began developing an early monitoring system to measure ALJ performance based
on a combination of risk factors, such as number of dispositions, number of on-the-record decisions, and
frequency of hearings with the same claimant representative. A quality division then reviewed potential issues
identified in the ALJ monitoring system to ensure compliance with established policies and procedures. We
reviewed hearing office risk factors particular to ALJs to determine whether such information, when alone or
combined with ODAR’s ALJ monitoring system outcomes, would provide ODAR management with additional
information to assess hearing office management controls. We found large variances in ALJ outcomes within
and between hearing offices, indicating that further review of ALJ performance variances in hearing offices, as
well as a new hearing office monitoring system using a combination of risk factors, would provide ODAR with
additional tools to assess hearing office management controls. Moreover, greater analysis of hearing office
variance can put issues identified as part of ODAR’s ALJ monitoring system and quality reviews into a broader
context.
Recommendation: Create new management information reports combining ALJ-related hearing office risk factors,
which could include variances within those factors, and use this information to identify potential processing
and management problems at hearing offices.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA continues to work on developing a system to identify potential processing and management
problems at the hearing office level.
TERMINATION OF DISABILITY BENEFITS FOLLOWING A CONTINUING DISABILITY REVIEW CESSATION
DETERMINATION (A-07-12-11211, 11/1/2012)
Results of Review: We identified populations of 25,564 DI beneficiaries and 67,943 SSI recipients who received
medical cessation determinations during CYs 2005 through 2010 but continued to receive monthly benefit
payments more than 2 months after the medical cessation determination. Of 250 DI beneficiaries sampled, we
found 30 percent improperly received benefit payments of approximately $48.9 million because payments were
not terminated timely. Of 250 SSI recipients sampled, 16 percent improperly received $34.7 million because
payments were not terminated timely.
These improper payments occurred, in part, because SSA lacked adequate controls and did not have automated
systems for processing medical cessation determinations. SSA employees were aware of the systems limitations
and were to manually check cases to ensure the termination actions were accomplished. According to SSA,
reduced resources and increased workloads may have prompted employees to rely on the system, rather than
manually checking each case to ensure timely termination of benefits.
From November 2003 through June 2009, SSA took actions to identify DI beneficiaries and SSI recipients who
continued receiving benefit payments after medical cessation determinations. However, since June 2009, SSA
has not routinely identified cases where benefits were not terminated following medical cessation determinations.
According to SSA, this was the result of resource limitations and other work priorities.
Recommendation: Prioritize the identification of cases where disability benefit payments have not been
terminated following medical cessation determinations to minimize improper payments.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA is currently reviewing cases to determine the scope of the issue and the feasibility of
the recommendation.




October 1, 2013 - March 31, 2014                                                                              47
                                                  Table of Contents
Semiannual Report to Congress



USING MEDICARE CLAIM DATA TO IDENTIFY DECEASED BENEFICIARIES (A-08-09-19105, 8/2/2012)
Results of Review: We believe SSA can use enhanced Medicare claim data to better identify deceased beneficiaries
using less time and fewer resources. For example, SSA either terminated or suspended benefits of 44 (35
percent) of our 125 sample beneficiaries, which is significantly higher than the 5 percent SSA found in its 2002
Medicare Non-Usage Project.
Based on our findings, we estimate that SSA overpaid 890 deceased beneficiaries about $99 million. Further,
we estimate that over the next 12 months, SSA will pay about $9 million in additional overpayments to these
deceased beneficiaries. In addition, we estimate that about 1,160 beneficiaries were living outside the United
States and did not report their address change to SSA, and about 190 beneficiaries’ whereabouts were unknown.
These are conservative estimates because they exclude beneficiaries who did not live near an Office of Audit
(OA) field office. Furthermore, we believe it is likely that many of the beneficiaries with suspended benefits are
deceased. We reached this conclusion because they did not contact SSA to reinstate their benefits.
Recommendation: Work the remaining 1,067 cases in our universe (who are in current payment status and not
part of the Centenarian Project) to determine whether these beneficiaries are alive.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA field offices are currently working the 1,067 cases.
SIGNIFICANCE OF ADMINISTRATIVE FINALITY IN THE SOCIAL SECURITY ADMINISTRATION’S PROGRAMS (A-
08-11-21107, 7/26/2012)
Results of Review: As determined in our prior and current reviews, SSA did not correct beneficiary and recipients’
payment amounts when it invoked administrative finality. For example, we identified a beneficiary receiving
a full retirement benefit under her own Social Security number and another full benefit under her deceased
spouse’s Social Security number that resulted in an $870 monthly overpayment. The overpayments started
in July 1982 and created a total overpayment of approximately $215,000. Since our 2007 recommendation
to revise its administrative finality rules—which SSA disagreed with—the Agency has paid this beneficiary
approximately an additional $40,000. Because of SSA’s administrative finality rules, it will not reopen this case
and this overpayment will continue increasing throughout the beneficiary’s lifetime.
Given the recent Government initiative to reduce improper spending and waste of Federal funds and the
current economic environment, we do not believe SSA’s administrative finality rules comply with the initiative.
SSA should revise its administrative finality rules and allow for revisions to payments to ensure the beneficiary
or recipient receives the amount they are due. We believe it is the appropriate business process to ensure the
integrity of program funds as these payments affect the trust funds.
Recommendation: Evaluate its administrative finality policies and regulations and consider revising the rules
to allow for the collection of more debt.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA is still considering four proposals for changing the rules of administrative finality.
On 7/31/2013, the Agency published a Federal Register Notice to solicit comments from the public on these
proposals. The comment period ended on 9/30/2013. SSA received seven responses, and all of the comments
were from legal services or other advocacy organizations, including the National Organization of Social Security
Claimants’ Representatives and the National Association of Disability Representatives. Currently, SSA is in the
process of evaluating these comments to determine the Agency’s next steps.
THE SOCIAL SECURITY ADMINISTRATION’S SOFTWARE MODERNIZATION AND USE OF COMMON BUSINESS
ORIENTED LANGUAGE (A-14-11-11132, 5/17/2012)
Results of Review: Our review determined that SSA does not have a strategic plan to convert its legacy COBOL
application programs to a more modernized programming language. Nonetheless, the Agency has developed
an approach to gradually reduce its reliance on COBOL for its core processing of program transactions, such
as retirement and disability claims.




48                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                  Semiannual Report to Congress



While the Agency has moved forward in modernizing its information technology environment, several factors
limit the Agency’s ability to operate efficiently and improve service delivery. At a minimum, SSA should address
the following factors in its modernization roadmap: (1) projected future service delivery demands; (2) growth
of information technology and maintenance costs; (3) loss of institutional legacy programming knowledge; (4)
lack of integrated business processes; and (5) outdated user interfaces. Although these factors are not unique
to COBOL, SSA relies on COBOL applications to deliver its core services. Therefore, the Agency’s use of COBOL
impacts its current system environment and its system modernization path.
Recommendation: Develop a comprehensive, long-term strategic plan to modernize SSA’s legacy applications.
This plan should:
include a target timeframe and estimated resources to modernize SSA’s existing environment;
include an in-depth analysis of projected service delivery demands and how new approaches and technology
can promote greater productivity while meeting customer expectations for service;
position the Agency to maximize the effectiveness and cost-efficiency of its systems over the long-term; and
be reevaluated over time and revised as necessary.
Agency Response: SSA agreed with the recommendation.
Corrective Action: This recommendation is consistent with current guidance from the Office of Management
and Budget (OMB) regarding the Federal Enterprise Architecture framework. While SSA expected to issue its
current Information Resource Management Strategic Plan during the second quarter of FY 2013, the Agency
has not confirmed that it was completed.
STATE DISABILITY DETERMINATION SERVICES’ EMPLOYEE AND CONTRACTOR SUITABILITY PROGRAM (A-15-11-
21180, 12/21/2011)
Results of Review: Although SSA had a limited policy in place that required a statewide criminal background
check, we noted a number of vulnerable areas in the policy that could pose a risk to SSA data and systems. We
found that State policy regarding suitability determinations for employees, contractors, and other disability
determination services (DDS) staff varied widely from State to State. Some States had yet to implement a policy
requiring statewide criminal background checks. Additionally, we found that although most States had a policy in
place for prospective employees, the policy did not require criminal background checks for existing employees.
SSA performed some oversight of the DDS suitability process. Regional Office staff should review the DDS’ self-
assessments, but beyond this, Regional Office staff stated they leave the suitability determinations to the DDSs.
According to SSA, Regional Office staff is responsible for conducting the day-to-day monitoring of the DDSs.
Recommendation: Require all individuals with access to SSA systems and data to have an appropriate suitability
determination consistent with the requirements of SSA’s suitability program.
Agency Response: SSA agreed with the recommendation.
Corrective Action: Based on budgetary resources, HSPD 12 roll-out was temporarily placed on hold. Currently,
three DDS sites are in process for suitability determinations and credential issuance. SSA has initiated the
fourth site as of December 2013. If funding is made available, SSA still anticipates completing 10 sites by the
end of FY 2014.
FOLLOW-UP: SURVIVOR BENEFITS PAID IN INSTANCES WHEN THE SOCIAL SECURITY ADMINISTRATION
REMOVED THE DEATH ENTRY FROM A PRIMARY WAGE EARNER’S RECORD (A-06-10-20135, 9/1/2011)
Result of Review: SSA has made progress in completing corrective actions to address the recommendations in
our September 2006 report. SSA determined that 286 of the 307 wage earners identified during the prior review
were actually deceased. SSA confirmed that 14 wage earners were alive and took action to terminate survivor
benefit payments. SSA erroneously issued approximately $579,000 in survivor benefits to family members of
these wage earners. SSA could provide no documentation to indicate completion of death verifications for the
remaining seven individuals.




October 1, 2013 - March 31, 2014                                                                              49
                                                  Table of Contents
Semiannual Report to Congress



As part of our follow-up review, we identified an additional 642 wage earners whose family members received
survivor benefits even though SSA had deleted the wage earners’ death entries from the Death Master File, and
SSA’s Numident file indicated the wage earners were alive. At the time of our review, SSA paid approximately
$644,000 in monthly survivor benefits to family members of the 642 wage earners. Our review of sampled
records indicated that, similar to our 2006 findings, SSA employees who deleted these death entries did not
document pertinent facts to support or explain these transactions. The resurrection transactions indicated the
wage earners were alive, and survivor benefits were improper. If the wage earners were actually deceased, SSA
erroneously deleted their information from the Death Master File.
Recommendation: Perform death verifications for each of the 642 records with survivor benefit payments
identified in this review and the 7 pending from our prior review and take appropriate action (for example,
terminate benefits and establish overpayments, refer potentially fraudulent cases to OIG, and/or reinstate
death entries).
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA has resolved all the cases except for one. SSA is still investigating to determine the
proper number holder (NH) and whether the correct NH is deceased or alive. This is a shared Numident case
which involves mixed earnings over a lengthy period involving survivor benefits which could be based on fraud.
Due to the complexity, no time estimate has been given by the Region. Recomputations, overpayments, and
processing center work still need to be done once the proper NH is identified.
AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED FOR ADDRESS OR WHEREABOUTS UNKNOWN
(A-09-09-29117, 6/17/2011)
Result of Review: SSA had not taken appropriate actions for Title II beneficiaries over age 70 whose benefits
were suspended for address, whereabouts unknown, or miscellaneous reasons. We estimate that
•	 29,196 beneficiaries whose whereabouts were unknown for longer than 7 years had not been terminated
   based on a presumption of death;
•	 5,981 beneficiaries had been suspended between 2 and 7 years because their whereabouts were unknown; and
•	 2,964 foreign beneficiaries were suspended because they did not return the foreign enforcement questionnaire
   (FEQ), and there was no evidence that SSA conducted the required follow-up actions to determine their
   whereabouts or whether they were deceased.
Recommendation: Take appropriate action (including termination of benefits) for the estimated 2,964 suspended
beneficiaries living outside the United States who did not return the FEQ.
Agency Response: SSA agreed with the recommendation.
Corrective Action: This recommendation will be completed by the Deputy Commissioner for Operations once
the Program Operations Manual System guide under Audit 22011049 Recommendation #2 is published. This
will require a change in coding on the MBR.
THE SOCIAL SECURITY ADMINISTRATION’S TIME ALLOCATION SYSTEM (A-14-10-20122, 4/18/2011)
Result of Review: We found several events that led to SSA’s decision to terminate the Time Allocation System
(TAS). Some of these events raised questions about SSA’s management of the TAS project, given that the
project was terminated without proper analysis to determine which Workload Management System (DOWS or
TAS) more accurately accounted for workload time measurements. We believe if SSA had conducted sufficient
project planning before initiating the TAS project, most, if not all, of the events identified in this report could
have been resolved before expending approximately $36 million of Agency resources. We have organized our
findings based on the Systems Development Life Cycle used by SSA.
• Planning and Analysis Phase
     - Insufficient Planning and Analysis Leading to the Termination of TAS
     - TAS Benefits and Costs Were Not Identified Timely



50                                                                                 October 1, 2013 - March 31, 2014
                                                   Table of Contents
                                                                                 Semiannual Report to Congress



• Construction Phase
 - Insufficient Testing Due to Storage Constraints
• Post Release Phase
    -       No Post Implementation Review (PIR) after a system was in operation for 6 months,
        	   or after TAS was terminated, to determine reasons for the project’s failure.
• Maintenance Phase
 - Inability to maintain TAS cost-effectively.
Recommendation: Take the necessary steps to validate the accuracy of the current work measurement system
or future replacements.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Agency simplified work sampling by eliminating obsolete categories and consolidating
categories with significant overlap. These changes went into effect at the beginning of FY 2012. SSA updated
the Management Information Manual chapters on work sampling to reflect the category changes and rewrote
sections that previously contained language that was vague, inconsistent, and potentially confusing. SSA
issued an Administrative Message, published on PolicyNet, to announce and document the changes to work
sampling. Separately, SSA also created a Work Sampling Guidance document, published in the Management
Resource Kit section of PolicyNet, to provide general instructions, best practices, reminders, and other helpful
information about the work sampling process.
In addition, SSA wrote a Video On Demand script for work sampling training, which the Agency is planning
to produce in the coming year. SSA is also in preliminary discussions with the Office of Systems, the Office
of Automation Support, and other Operations stakeholders about automating a portion of work sampling by
using a pop-up application that employees would use to report work activity instead of the manual sampling
process the Agency uses now.
The project to automate a portion of work sampling is moving forward, but the Agency is still in the early
planning stages. SSA expected to begin development in FY 2013, but a timeline for implementation has not
been confirmed.
Recommendation: Perform a PIR after a system has been in operation for 6 months and for all terminated
projects to determine reasons for the project’s termination.
Agency Response: SSA agreed with the recommendation.
Corrective Action: In support of conducting PIRs in FY 2013, SSA’s Office of Systems was in the process of
refining the policy and framework that was developed. SSA is comparing the PIR data requirements against
the Project Success Verification process in order to identify the areas to enhance as outlined in OMB guidance.
SSA continues to perform Project Success Verifications on the Agency’s completed projects.
DISABILITY IMPAIRMENTS ON CASES MOST FREQUENTLY DENIED BY DISABILITY DETERMINATION SERVICES
AND SUBSEQUENTLY ALLOWED BY ADMINISTRATIVE LAW JUDGES (A-07-09-19083, 8/20/2010)
Results of Review: We identified the four impairments that were most often denied by DDSs in CYs 2004 through
2006, appealed to the hearing level, and subsequently allowed. These impairments were Disorders of Back;
Osteoarthrosis and Allied Disorders; Diabetes Mellitus; and Disorders of Muscle, Ligament, and Fascia. Our
analysis of cases with these four impairments disclosed:
Claimant age impacted disability determinations.
•	 Determinations of claimants’ ability to work resulted in differences at the DDS and hearing levels.
•	 Claimant representation was more prevalent in cases allowed at the hearing level than in cases decided at
   the DDS level.




October 1, 2013 - March 31, 2014                                                                             51
                                                 Table of Contents
Semiannual Report to Congress



•	 Cases were allowed at the hearing level based on a different impairment than that on which the DDS made
   its determination.
•	 States had both DDS denial rates and hearing level allowance rates above the national averages.
•	 ODAR regions, hearing offices, and ALJs had wide variations in allowance rates.
Recommendation: SSA should consider analyzing variances between the hearing offices and ALJs with high
and low allowance rates for the four impairments we analyzed to determine whether factors are present that
support the variances
Agency Response: SSA agreed with the recommendation
Corrective Action: SSA’s Office of Appellate Operations (OAO) developed a program to pull data on the
allowance and denial rates based on the four impairments in OIG’s report, and analyzed data from FY 2010
hearing decisions that contained the four impairments. OAO in consultation with the Office of the Chief ALJ
will determine if focused reviews are necessary on any hearing offices and/or adjudicators with the highest or
lowest allowance rates of the impairments OIG identified. SSA expects to finalize the report by the end of the
first quarter in CY 2014.



Significant Non-Monetary Recommendations From Prior Semiannual
Report to Congress for Which Recent Corrective Action Has Been
Made
DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF A REPRESENTATIVE PAYEE (A-07-11-11110,
9/27/2012)
Results of Review: We estimate that over 208,000 of the 895,151 mentally impaired beneficiaries in our population
received over $200 million in monthly benefits and may have been incapable of managing or directing the
management of their benefits. If these beneficiaries are, in fact, in need of a representative payee, we further
estimate over $2.4 billion in benefits will be at risk of inappropriate use, annually.
SSA policy states that it must remain alert to indications of a change in a beneficiary’s condition or circumstances
that might indicate a need for a new capability determination. However, over $2.4 billion in benefits may be at
risk of inappropriate use because SSA does not have a process to identify mentally impaired beneficiaries who
become incapable of managing or directing the management of their benefits after their initial entitlement.
In addition, we estimate that approximately $2 million in monthly benefits are at risk because 6,076 beneficiaries
received benefits under both the DI and SSI programs, but only have a representative payee assigned for 1 of the
programs. If these beneficiaries are, in fact, in need of a representative payee, we further estimate approximately
$24 million in benefits will be at risk of inappropriate use, annually.
Recommendation: Contact the 72 beneficiaries whom we could not locate or refused to participate in our review
to verify their continued benefit eligibility and, if eligible, determine whether they are capable of managing their
benefits.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA completed each case associated with this recommendation. Of the 72 cases, the Agency
determined that: 4 beneficiaries were terminated, 1 beneficiary was in suspense, and 56 beneficiaries were
capable of handling their own benefits. SSA appointed payees for five beneficiaries, and placed six beneficiaries
in suspense.
AGED BENEFICIARIES WHOSE BENEFITS HAVE BEEN SUSPENDED FOR ADDRESS OR WHEREABOUTS UNKNOWN
(A-09-09-29117, 6/17/2011)
Result of Review: SSA had not taken appropriate actions for Title II beneficiaries over age 70 whose benefits
were suspended for address, whereabouts unknown, or miscellaneous reasons. We estimate that



52                                                                                  October 1, 2013 - March 31, 2014
                                                   Table of Contents
                                                                                     Semiannual Report to Congress



•	 29,196 beneficiaries whose whereabouts were unknown for longer than 7 years had not been terminated
   based on a presumption of death;
•	 5,981 beneficiaries had been suspended between 2 and 7 years because their whereabouts were unknown; and
•	 2,964 foreign beneficiaries were suspended because they did not return the foreign enforcement questionnaire,
   and there was no evidence that SSA conducted the required follow-up actions to determine their whereabouts
   or whether they were deceased.
Recommendation: Identify and terminate in accordance with SSA’s presumption of death policy, the entitlement
of the estimated 29,196 beneficiaries whose whereabouts were unknown and have been in suspended pay
status for 7 or more years.
Agency Response: SSA agreed with the recommendation.
Corrective Action: In August 2013, SSA developed a unique reason for suspension and termination code (RFST)
of AGETRM for use with ledger account file (LAF) T9 (miscellaneous termination) to terminate certain title II
beneficiaries in suspense for whereabouts unknown for 7 or more years. SSA narrowed the selection criteria to
eliminate certain records (e.g. contained auxiliaries receiving benefits, dual-entitlement involved, contained a
date of death on another record, etc.) from 16,000 title II beneficiaries to approximately 9,200 title beneficiaries.
On October 21, 2013, SSA’s Office of Quality Performance completed its processing to manually terminate these
records. In FY 2014, the Agency’s goal is to automate the process and schedule periodic runs.




October 1, 2013 - March 31, 2014                                                                                  53
                                                    Table of Contents
Semiannual Report to Congress




Appendix H: Peer Reviews
OFFICE OF AUDIT
•	 Our Office of Audit is required to undergo a peer review every 3 years, in accordance with generally accepted
   government auditing standards.
•	 The final System Review Report related to our last peer review, conducted by the Department of Veterans
   Affairs, was issued in August 2012. We received a rating of pass, which means that the review team concluded
   that the system of quality control for the audit organization had been suitably designed and complied with to
   provide us with reasonable assurance of performing and reporting in conformity with applicable professional
   standards in all material respects. The Department of Veterans Affairs OIG identified no deficiencies that
   affected the nature of the report. Further, there were no findings or recommendations as a result of this
   peer review.
•	 During FY 2013, we conducted a peer review of the Department of Labor OIG Audit Organization. We issued
   our report on March 15, 2013 and made no recommendations as a result of this peer review.
•	 There are no outstanding recommendations from prior audit peer reviews completed by us, or from prior
   reviews of our organization.



OFFICE OF INVESTIGATIONS
•	 Our Office of Investigations is required to undergo a peer review every 3 years to ensure general and
   qualitative standards comply with the requirements of the Quality Standards for Investigations adopted
   by the CIGIE. The peer review also ascertains whether adequate internal safeguards and management
   procedures exist to ensure that the law enforcement powers conferred by the 2002 amendments to the
   Inspector General Act are properly exercised pursuant to Section 6(e) of the Inspector General Act (as amended)
   and the United States Attorney General Guidelines for Offices of Inspector General with Statutory Law
   Enforcement Authority.
•	 During this reporting period, the Office of Investigations did not undergo a peer review.
•	 During this reporting period, the Office of Investigations did not conduct a peer review.
•	 There are no outstanding recommendations from prior investigative peer reviews completed by us or from
   prior reviews of our organization.




54                                                                                October 1, 2013 - March 31, 2014
                                                  Table of Contents
                                                                                      Semiannual Report to Congress




Appendix I: Review of Legislation and Regulations
Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the SSA OIG to review existing and
proposed legislation and regulations relating to SSA’s programs and operations; and to make recommendations
concerning their impact on those programs or on the prevention of fraud and abuse. We accomplish this in
several ways. First, many of our audits and other reports evaluate SSA’s compliance with existing laws and
regulations. When appropriate, we recommend issuing relevant regulations or seeking appropriate legislative
authority; and we provide a status of those recommendations in our Semiannual Report to Congress. Additionally,
we describe in our annual Audit Work Plan planned reviews that will address issues related to laws and
regulations.
With regard to proposed legislation and regulations, we provide comments on pending or proposed legislation
to SSA’s Office of Legislation and Congressional Affairs, which includes those comments in its agency response
to OMB.
In addition, we participate on an SSA working group that reviews legislative proposals throughout the year.
This working group provides feedback on proposals submitted from all SSA components. Also, the Inspector
General is an active member of the CIGIE Legislation Committee. In this role, we provide input to responses
prepared by the committee to congressional staff on the impact of proposed legislation, and we meet with
congressional staff as needed to discuss legislative issues.
Fraud in SSA’s disability programs continues to be of great concern to Congress and the public. During this
reporting period, the Inspector General testified twice on this issue before Congress. On November 19,
2013, the Inspector General testified before the House Committee on Oversight and Government Reform,
Subcommittee on Energy Policy, Health Care, and Entitlements, at a hearing on SSA’s management of the
disability programs. He testified that it is critical that SSA and the OIG be able to identify and prevent individuals
and groups from defrauding the government and SSA’s disability programs for personal gain. He reviewed the
audits and investigative initiatives the OIG has done and has ongoing as we work to improve the integrity and
effectiveness of the claims and appeals process. The Inspector General stressed the importance of targeting
widespread fraud schemes and identifying vulnerabilities in the claims process, including the recent activity
regarding disability fraud in Puerto Rico.
On January 16, 2014, the Inspector General testified before the House Committee on Ways and Means,
Subcommittee on Social Security, at a hearing on the Social Security Disability Fraud Scheme in New York. He
reviewed the history of the investigation, providing some detail of the scheme. He also reviewed other OIG
integrity efforts, examining the many facets of the disability claims process for vulnerabilities. The Inspector
General pointed out how our investigations into both the New York and Puerto Rico fraud schemes were
hampered by the ongoing lack of an exemption from the requirements of the Computer Matching and Privacy
Protection Act (CMPPA) and the Paperwork Reduction Act (PRA). We continue to support a CIGIE legislative
proposal to exempt all Federal OIGs from complying with the provisions of the CMPPA and the PRA for projects
relating to fraud, waste, and abuse; and we have met with various congressional staff to provide input on this
issue.
We also provided technical input to congressional staff on the proposed language of H.R. 4090, the Social
Security Fraud and Error Prevention Act of 2014. This legislation is designed to improve SSA’s ability to fight fraud,
prevent errors, and protect the Social Security Trust Fund.




October 1, 2013 - March 31, 2014                                                                                   55
                                                    Table of Contents
Semiannual Report to Congress


             Glossary of Acronyms

              ALJ           Administrative Law Judge
              ARPS          Appeals Review Processing System
              CDI           Cooperative Disability Investigations
              CDR           Continuing Disability Review
              CIGIE         Council of Inspectors General on Integrity and Efficiency
              CMP           Civil Monetary Penalty
              CPMS          Case Processing and Management System
              CY            Calendar Year
              DDD           Division of Disability Determinations
              DDS           Disability Determination Services
              DFT           Digital Forensics Team
              DHS           Department of Homeland Security
              DI            Disability Insurance
              DOJ           Department of Justice
              EEO           Earnings Enforcement Operation
              FBI           Federal Bureau of Investigations
              FPS           Federal Protective Service
              FY            Fiscal Year
              GPO           Government Pension Offset
              HUD           Department of Housing and Urban Development
              IO            Immediate Office
              IT            Information Technology
              MBR           Master Beneficiary Record
              MEF           Master Earnings File
              OA            Office of Audit
              OASDI         Old-Age, Disability and Survivors Insurance
              OCIG          Office of the Counsel to the Inspector General
              ODAR          Office of Disability Adjudication and Review
              OER           Office of External Relations
              OI            Office of Investigations
              OIG           Office of the Inspector General
              OQPAR         Office of Quality Performance and Review
              OTR           on-the-record
              OTRM          Office of Technology and Resource Management
              PC            Processing Center
              PII           Personally Identifiable Information

56                                                                            October 1, 2013 - March 31, 2014
                                                Table of Contents
                                                                              Semiannual Report to Congress



      Glossary of Acronyms (Continued)

     PPV             parole and probation violations
     SAA             Senior Attorney Adjudicator
     SITAR           Strategic Information Technology Assessment and Review
     SNRHA           Southern Nevada Regional Housing Authority
     SSA             Social Security Administration
     SSI             Supplemental Security Income
     SSN             Social Security Number
     SSNVS           Social Security Number Verification System
     the Act         Social Security Act
     URL             Uniform Resource Locator
     WEP             Windfall Elimination Provision




October 1, 2013 - March 31, 2014                                                                        57
                                                   Table of Contents
